<html>
<title> - NUCLEAR IRAN PREVENTION ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  NUCLEAR IRAN PREVENTION ACT OF 2013

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 850

                               __________

                              MAY 22, 2013

                               __________

                           Serial No. 113-27

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
81-160                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 850, To impose additional human rights and economic and 
  financial sanctions with respect to Iran, and for other 
  purposes.......................................................     2
  Amendment in the nature of a substitute to H.R. 850 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    29
  En block amendments to H.R. 850 offered by various members.....    84
  Amendment to the amendment in the nature of a substitute to 
    H.R. 850 offered by the Honorable Edward R. Royce............   144
  Amendment to the Royce amendment to the amendment in the nature 
    of a substitute to H.R. 850 offered by the Honorable Alan 
    Grayson, a Representative in Congress from the State of 
    Florida......................................................   148
  Amendments to the amendment in the nature of a substitute to 
    H.R. 850 offered by:.........................................
      The Honorable Alan Grayson.................................   151
      The Honorable Alan Grayson.................................   155
      The Honorable Tom Cotton, a Representative in Congress from 
        the State of Arkansas....................................   156
      The Honorable Alan Grayson.................................   157
      The Honorable Tom Cotton...................................   158
      The Honorable Alan Grayson.................................   164
      The Honorable Alan Grayson.................................   167
      The Honorable Alan Grayson.................................   169
      The Honorable Edward R. Royce; the Honorable Eliot L. 
        Engel, a Representative in Congress from the State of New 
        York; the Honorable Tom Cotton; the Honorable Brad 
        Sherman, a Representative in Congress from the State of 
        California...............................................   172

                                APPENDIX

Markup notice....................................................   176
Markup minutes...................................................   177
Markup summary...................................................   179
The Honorable Edward R. Royce: Material submitted for the record.   181
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............   182
The Honorable George Holding, a Representative in Congress from 
  the State of North Carolina: Prepared statement................   183


                  NUCLEAR IRAN PREVENTION ACT OF 2013

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:15 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The hearing will come to order pursuant to 
notice. We meet today to mark up H.R. 850, the Nuclear Iran 
Prevention Act of 2013.
    The Chair calls up the bill. And without objection, the 
bipartisan amendment in the nature of a substitute that was 
sent to your offices on Monday is considered base text, and is 
considered read and open for amendment at any point.
    [H.R. 850 and the amendment in the nature of a substitute 
referred to follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Royce. After recognizing myself and the ranking 
member to explain the bill, I will call up a package of 
bipartisan amendments to be considered en bloc, at which point 
I would be glad to recognize any members seeking recognition to 
speak. Without objection, all members may have 5 days to submit 
statements for the record on the bill or statements on the 
amendments.
    I now recognize myself to describe the base text.
    Last week the committee heard testimony from senior 
administration officials on the threat of a nuclear Iran. As I 
said then, there is no higher priority for this committee than 
stopping Iran's nuclear weapons drive.
    Thanks to the tools provided by Congress, sanctions have 
been stepped up over the past year and a half. Consequently, 
Iran's oil revenue has been dropped now by 40 percent. 
Inflation in Iran has climbed to 30 percent. Those are the 
official numbers. The unofficial numbers are twice that.
    But as impressive as this is, it is not enough. A loophole 
in existing sanctions has allowed, for example, the transfer of 
$6 billion of gold into Iran to buttress their reserves. And 
Iran is advancing its nuclear program with great determination. 
The number of installed centrifuges has doubled since the fall 
of 2011. These centrifuges are getting more advanced. Iran's 
nuclear activities are falling farther out of view of 
international inspectors who are being stonewalled.
    Without question, we have to play every card, and we have 
to pull every lever that we have. This legislation, developed 
with Ranking Member Engel, aims to do just that. In short, we 
attack Iran's oil exports, we hit its brutal leaders, and we 
crimp its access to overseas cash.
    Since key oil sanctions were passed--and, by the way, that 
was over administration objections at the time--but since those 
key oil sanctions were passed in December 2011, 1 million 
barrels of Iranian crude per day have been taken off the 
market, yet countries still buying Iran's oil continue to 
receive a ``significant reduction exemption'' from the 
administration.
    This bill would compel that another 1 million barrels per 
day be taken off of the market. Now is the time to snap 
Tehran's Achilles heel. Simply put, without oil revenue, there 
is no cash for atomic weapons. And without oil revenue, 
hopefully, we also crimp the funding for Hezbollah.
    With this bill, we will work to limit Iran's access to 
overseas foreign currency reserves, blacklist more sectors of 
the economy, and begin to target significant commercial trade 
with Iran. Shipping is targeted in this legislation as well. We 
squeeze, and then we squeeze some more.
    Importantly, this bill seeks to ensure that when the 
administration imposes sanctions on any entity that provides 
precious metals to Iran, like gold, that they have every 
sanction available to them. And we extend sanctions aimed at 
curbing terrorism and proliferation to human rights violators, 
standing by the Iranian people who are suffering abuse and 
yearning for freedom. The Iranian regime also systematically 
denies the Iranian people humanitarian supplies, as we heard 
from the administration last week in their testimony.
    I should recognize that Chairman Emeritus Ros-Lehtinen and 
former chairman Howard Berman helped put in place many of the 
sanctions we are building on today. This committee has 
historically led the way on Iran sanctions, and always in a 
bipartisan way.
    Today, we continue moving ahead with a bill that now has 
over 330 co-sponsors. It is critical that the administration 
aggressively impose all Iran sanctions. This is a very tough 
bill, as it should be. The threat is grave. And at the end of 
the day, I know the committee wants to see Iran's nuclear 
weapons effort ended by peaceful means. That can only happen 
with crippling sanctions.
    I now recognize the ranking member, the co-author of this 
bill, Eliot Engel from the Bronx in New York City, for his 
opening remarks.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling today's markup on H.R. 850, the Nuclear Iran Prevention 
Act of 2013.
    You and I have worked closely together on this bill in a 
bipartisan way, which is one of the reasons this committee 
works so well. I think we have more bipartisanship on this 
committee than virtually any other committee. Perhaps we can 
lead the way for the rest of the Congress.
    It has been a pleasure working with you and your staff, 
again, in a bipartisan manner to craft this important 
legislation, which now, as you have pointed out, has more than 
330 co-sponsors from both sides of the aisle. I am very glad 
that our freshmen on both sides of the aisle are here so early 
in their congressional career having a markup, which is of 
course so important to the well-being of our nation.
    Mr. Chairman, we share the goal of preventing a nuclear-
capable Iran, which would pose a grave threat to the United 
States and our allies, and I could not ask for a better partner 
than you in this effort.
    Last week the State Department's lead negotiator in the 
P5+1 negotiations with Iran, Ambassador Wendy Sherman, appeared 
before this committee. Her testimony confirmed that Iran 
continues to reject diplomatic efforts to resolve this crisis 
and is not prepared to abandon its dangerous and illegal 
nuclear weapons program.
    As I mentioned at the hearing, I don't think Iran will ever 
negotiate in good faith unless we ratchet up the pressure, and 
that is the purpose of the legislation before us today. 
Previous sanctions legislation reduced Iran's oil exports by 1 
million barrels a day, from roughly 2.5 million barrels a day 
to less than 1.5 million barrels.
    We have written this bill to cut Iran's oil exports by yet 
another million barrels a day, a reduction of two-thirds from 
Iran's current exports. Shrinking Iran's oil exports to less 
than 0.5 million barrels a day will be the strongest step we 
have taken thus far to pressure Iran to stop its nuclear 
weapons program and end its support for terrorism.
    The legislation also strengthens existing sanctions by 
authorizing the President to restrict significant commercial 
trade with Iran. It uses the same model, sanctioning 
transactions through the central bank of Iran or a designated 
Iranian bank, that has successfully targeted Iran's oil trade 
over the past year.
    In addition, the bill seeks to deny the Iranian regime hard 
currency by enhancing our ability to work with our European 
allies in cutting off Iran's access to euro-dominated 
transactions. And, finally, our bill imposes new sanctions 
against Iranian shipping imports and expands existing sanctions 
against Iranian human rights violators and those who aid and 
abet human rights abuses by transferring certain technologies 
to Iran.
    Today, members will have the opportunity to offer 
amendments to improve this legislation, and hopefully make our 
sanctions regime even more effective. I look forward to 
supporting those amendments.
    With Iran moving full speed ahead on its nuclear weapons 
program, time is of the essence. It is clear that Iran is 
playing for time. They want to keep making excuses until their 
having a bomb becomes a fait accompli. We will not allow that 
to happen, and this legislation is a very important piece of 
that puzzle.
    I hope we can bring this bill to the floor as soon as 
possible, work out differences with our partners in the Senate, 
and get it to the President's desk without delay.
    Mr. Chairman, again, I am proud to be part of this 
bipartisan effort to address the most critical national 
security challenge facing our nation today, and I look forward 
to working with you to ensure that the strongest possible 
sanctions are enacted into law.
    Thank you, Mr. Chairman.
    Chairman Royce. I thank my friend for his remarks, and I 
also thank him for the contributions that he has made to this 
legislation. And as your offices were previously notified, I 
will now call up the bipartisan en bloc, and then we will 
recognize any members wishing to speak on the bill or wishing 
to speak on those en bloc amendments after we have done that.
    So without objection----
    Mr. Grayson. Point of order.
    Chairman Royce [continuing]. The following amendments 
provided----
    Mr. Grayson. Sorry, Mr. Chairman. This is a point of order. 
I think that we should have at least a voice vote on the 
amendment in the nature of a substitute. We have a bill. We 
have an amendment in the nature of a substitute. We have not 
had a vote yet on the amendment in the nature of a substitute. 
I think under Rule 5 we should have such a vote.
    It can be very brief; I want to move along here. But I 
think we do need such a vote under Rule 5.
    Chairman Royce. Well, if I could, Mr. Grayson, my intention 
was to go to a vote on that after the amendments. What you are 
suggesting is that rather than recognizing the en bloc 
amendment first, you would prefer to have that vote prior to 
accepting the en bloc amendments?
    Mr. Grayson. Yes, Mr. Chairman. Exactly. The amendment in 
the nature of a substitute should have a vote before we have 
the en bloc amendments, because my understanding is that the en 
bloc amendments are based upon the amendment in the nature of a 
substitute, or, as you put it, the base language.
    Chairman Royce. Well, we are in the process of amending the 
base text, so that we have base language. Then, if you wished 
to call up a vote on that, we could be recorded, because at 
this point these amendments--the base text is pending these 
amendments. That's the circumstance we are now in.
    Mr. Grayson. So if I understand the chairman correctly, the 
chairman does contemplate a vote on the amendment in the nature 
of a substitute, but only after all other amendments to that 
amendment have been resolved.
    Chairman Royce. Well, after the amendments that we have 
already resolved en bloc. All right? So that is the suggestion 
I am making.
    Mr. Grayson. I understand. I withdraw my objection.
    Chairman Royce. And I think that might be acceptable to 
you.
    Mr. Grayson. Yes, it is, Mr. Chairman. Thank you.
    Chairman Royce. I thank the gentleman from Florida.
    Okay. Without objection, the following amendments provided 
to all members yesterday, and which you have in front of you, 
will be considered en bloc, Royce Amendment 22; Connolly 
Amendment 39; Cotton Amendments 4 and 20; Deutch Amendments 22, 
23, and 25; Duncan Amendment 16; Frankel Amendment 3; Grayson 
Amendments 101, 103, 108, and 110; Marino Amendment 19; Poe 
Amendment 38; Ros-Lehtinen Amendment 18; Schneider Amendment 2; 
and Sherman Amendments 74, 75, 76, and 79.
    [The en bloc amendments offered follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Royce. And I think at this time it would be 
appropriate to ask if any members want to speak either on the 
en bloc amendments or on the underlying bill, and we will go to 
Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I want to thank you 
and the ranking member for your work on this important 
legislation. It builds upon the key work, particularly the 
Menendez-Kirk Amendment, that has had such an effect of making 
it difficult for Iran to sell its oil.
    As you point out, Iran is now down to 1.2-1.5 million 
barrels, and those who want to do business with the central 
bank of Iran without obtaining U.S. sanctions have to get 
waivers from the United States. And for those waivers to 
continue, we need to see dramatic reductions in oil purchases 
from Iran.
    As to the en bloc amendment, I should explain some of the 
provisions in it that stem from the four amendments that I had 
pending individually. First, and perhaps most important, it 
imposes sanctions on those who sell mining and milling 
equipment to Iran that can be used by Iran to exploit its own 
uranium ore.
    Second, it strengthens the sanctions on those who would 
provide WMD technology to Iran, and also strengthens the 
sanctions on those who would give the Iranian Government the 
technology to suppress the communications of its own citizens 
and the social media that was so important in the, 
unfortunately, unsuccessful Green Revolution or insurrection.
    Perhaps most importantly, we have a situation where we have 
to make sure that the sanctions are enforced. One thing that is 
already in our law that is self-enforcing is that those getting 
Federal Government contracts have to certify that that 
contracting entity is not violating U.S. sanctions law.
    So even if an administration were to do nothing unless 
corporate executives are willing to risk imprisonment, they are 
going to have to choose between doing business with the Federal 
Government and doing business with Iran in a manner that is 
sanctioned under our laws.
    Unfortunately, current statute applies that certification 
only to the entity contracting with the Federal Government and 
its subsidiaries. This en bloc amendment would broaden that to 
apply to the entire corporate group, so that the certification 
would be on behalf of the parent corporation and all of the 
brother-sister corporations, all of the corporations under 
joint control.
    So I think that the bill is a major step forward. The en 
bloc amendment deserves support.
    One thing that we need to work out with other committees is 
the issue of whether some in the administration would say, 
``Well, there is this or that part of the Iran sanctions bill 
that we would like to enforce, but our lawyers say that we 
can't because of some treaty or trade treaty, or whatever.'' 
You can always find a lawyer in this town that can tell you 
that you can't do this or that, especially if you don't want to 
do it.
    The fact is that we have--that none of our sanctions 
against Iran have been adjudicated by any competent 
international jurists or domestic tribunal to be in violation 
of any of our trade agreements. And I am certain that the 
members of the Ways and Means Committee are as dedicated as all 
Americans to preventing Iran from developing a nuclear weapon, 
and that ultimately they will want to see in this bill 
provisions that say that all American sanctions need to be 
enforced, notwithstanding some argument about some treaty, 
trade treaty or otherwise, unless and until there is an 
adjudication from a competent tribunal, which I am sure would 
not happen. And even if it did, it would happen many, many 
years down the road.
    Finally, I want to mention that an interesting bill was 
introduced in the Senate yesterday, the Iran Export Embargo 
Act, that would sanction those who buy non-energy exports from 
the Government of Iran. And as this bill goes forward, we may 
find provisions of that bill ought to be added to this bill.
    So this may be the most important legislation the committee 
deals with all year. It is something that I would like to 
commend the chair and the ranking member for preparing, and I 
yield back.
    Chairman Royce. I thank the gentleman from California.
    We go now to Mr. Smith from New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. And I want to 
thank you for authoring a truly important bipartisan piece of 
legislation. I think the Royce-Engel bill will make a serious 
difference in the fight to combat Iran's efforts to acquire a 
nuclear weapons of mass destruction capability.
    Oil revenues remain, as we all know, Tehran's economic 
lifeline, and I do believe we are at a tipping point. It may 
now be a matter of when, and not if, that Iran procures these 
weapons of mass destruction. But we have got to make this last 
economic effort to try to say not now, not ever, while this 
dictatorship continues to pose threats to its neighbors, to 
Europe, to the United States, and, really, to the world.
    I think it is very important that the legislation targets 
oil. As I pointed out, as so many of us pointed out again and 
again, especially when Wendy Sherman testified, when you can 
sell oil to China and a whole host of other nations and derive 
huge amounts of hard currency and the ability to sustain the 
European and American sanctions, we have not done all that can 
be done economically to try to mitigate this threat. So I do 
think this legislation takes us in a very significant way in 
the direction of finally saying, ``We are not kidding. This has 
got to stop.'' We are a tipping point, like I said.
    Again, I want to thank you--I would ask unanimous consent 
that my full statement be made a part of the record. But I do 
want to thank you, Chairman Royce. You know, Ileana Ros-
Lehtinen championed the legislation in the last Congress. And 
as you pointed out, it was bipartisan. Howard Berman was 
certainly a key factor in that legislation.
    And we know the administration is not favorable to this. We 
know it. Last Congress, over and over again, they tried to 
throw hurdles, speed bumps, and moguls in front of the 
legislation, and now it is a matter of more effective 
implementation of all current sanctions, but also the new, and 
I think significant, sanctions that you include in this 
legislation.
    So thank you, Mr. Chairman, and I yield back the balance of 
my time.
    Chairman Royce. Thank you. We will go now to Mr. Sires of 
New Jersey.
    Mr. Sires. Thank you, Mr. Chairman. Let me first compliment 
you and Mr. Engel for working together on this.
    Iran continues to ignore international law, and it is 
moving forward with its nuclear program. While our current 
sanctions are having an impact on Iran, more can be done and we 
must act now.
    I am a strong supporter of H.R. 850 and the amendments to 
the Nuclear Iran Prevention Act, and I thank the chairman and 
the ranking member for bringing this bill before the committee 
today. This legislation would allow the United States to employ 
more tools to combat Iran's nuclear program. H.R. 850 
strengthens sanctions against human rights violators and the 
corrupt Iran actors that steal humanitarian aid for their own 
benefits.
    H.R. 850 also tightens sanctions against companies who 
invest in Iran's energy sector and work with Iran's central 
bank. This bill also takes strong steps in having the Iran 
Revolutionary Guard Corps designated as a foreign terrorist 
organization by the U.S. State Department. H.R. 850 targets 
Iran's leadership to help end the threat of nuclear Iran and to 
stop the oppression of the Iranian people. Combating the threat 
of Iran is critical for the future safety and stability of the 
region, and the United States must continue to lead the fight 
in sanctioning this dangerous regime.
    I am proud to co-sponsor H.R. 850, and I urge my colleagues 
to support this bill.
    I yield back.
    Chairman Royce. I thank the gentleman.
    We go now to Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I will be brief. I do 
support this legislation. I commend you and the ranking member 
for offering it, and I intend to vote for it. I have to say, 
however, I am not optimistic that ultimately sanctions against 
Iran will work.
    I believe Iran is bound and determined to obtain nuclear 
weapons, and I think only if Iran is absolutely convinced that 
military action will be taken against them, if they don't back 
down from the program that they will actually back down. I 
don't think they are convinced of that.
    I think this administration, for years now, has basically 
sent a mixed message to Iran saying one thing, but at the same 
time saying something entirely different, sending mixed 
signals. So, again, I commend you for doing this, I think it is 
the right thing to do, and I do intend to support it. I don't 
think Iran is convinced that military action will be taken 
against them, therefore, I think they are going full speed 
ahead with their nuclear weapons program
    Thank you. I yield back.
    Chairman Royce. I thank the gentleman.
    We go to Mr. Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And I also want to 
express my appreciation to you and the ranking member for your 
leadership on this issue and for the bipartisan comity that has 
characterized the progress of this legislation.
    I support the amendment in the form of a substitute for 
H.R. 850, and I also am supportive of the en bloc amendment 
package. I particularly appreciate you and your staff and that 
of Mr. Engel, willing to accept the Connolly-Ros-Lehtinen 
Amendment that further clarifies internet access for 
democratization within Iran. We believe that the social media 
can really play a big role, despite the actions of the 
government in Iran. And I, again, thank you and Mr. Engel for 
working with us to accept that language.
    I would just say, Mr. Chairman, I hear some discord in 
notes on the otherwise bipartisan cooperation and tone today. I 
have to say, I respectfully disagree with my friend from Ohio. 
I think this administration most certainly does take sanctions 
against Iran very seriously, has enforced them. They are some 
of the toughest sanctions ever adopted against any country, and 
I don't think the administration has sent mixed signals to 
Tehran.
    I think Tehran sometimes hears what it wants to hear, but I 
am very gratified that both the United States and Israeli 
Governments have worked closely together in a policy to try to 
prevent nuclear development in Iran. And I think we will 
continue to do so, and I think this legislation will be welcome 
and will strengthen the administration's hands.
    And with that, I yield back.
    Chairman Royce. We will go now to Mr. McCaul of Texas.
    Mr. McCaul. I want to thank the chairman and ranking member 
for this legislation, and also for adopting my language to 
designate the Quds Force as a foreign terrorist organization. 
They have been behind some of the deadliest attacks of the past 
three decades, including the killing of American troops in Iraq 
and Afghanistan, the '96 Khobar Tower bombing in Saudi Arabia, 
the '94 attack on the Jewish Community Center in Buenos Aires, 
which I visited, the 1983/'84 bombings on the U.S. Embassy in 
Beirut, the '83 bombing of the Marine barracks in Beirut 
killing 299 Americans.
    They fit squarely within the definition of a foreign 
terrorist organization. I believe the designation is long 
overdue. And I just want to thank the chairman and the ranking 
member for including this language in this bill, which I 
strongly support.
    With that, I yield back.
    Chairman Royce. Well, thank you, Mr. McCaul.
    We now go to Mr. Vargas of California.
    Mr. Vargas. Thank you very much, Mr. Chair, for the 
opportunity to speak. I also want to thank you and the ranking 
member for this bill.
    I strongly support it, and I believe that we need to 
tighten economic sanctions against Iran as tight as possible. 
And the reason I think is quite simple, and that is because 
these sanctions are really in lieu of military action, because 
I don't think that the message has been clear enough, and I 
don't think that the Iranians have taken us seriously that we 
will use any means necessary to prevent them from gaining a 
nuclear weapon.
    We had testimony before, and I was able to ask the question 
to the experts that were here, if they believed that the 
Iranian regime was attempting to gain a nuclear weapon. All of 
them agreed. They disagreed on many things, but they didn't 
disagree on that point. They all agreed that Iran was 
continuing that process to gain a nuclear weapon.
    So I think that these sanctions are very necessary. I think 
that we should tighten the noose as tight as possible. They are 
a terrorist nation. There is no doubt about that. And, again, I 
thank you for bringing this forward. And any way that we can 
tighten these even further, I would be in favor of. So thank 
you.
    Chairman Royce. Thank you.
    Mr. Duncan of South Carolina is recognized.
    Mr. Duncan. Yes. Thank you, Mr. Chairman. And I want to 
thank you and the other members for the bipartisan effort on 
H.R. 850, and for including my amendment as part of the en bloc 
amendment.
    Just a few talking points that I would like to cover about 
Iran's nuclear program which threatens the safety and security 
of the U.S. and many of our allies and partners around the 
world. And although the U.S. has had sanctions on Iran since 
1979, with sharpening sanctions in more recent years, and while 
the U.N. and the EU have passed sanctions on Iran, we continue 
to see countries purchasing oil or natural gas from Iran with 
gold.
    Although the President has had the authority to impose 
sanctions on gold exports to the Iranian Government since July 
2012, to date the administration has not penalized any entity 
on these grounds. In the meantime, lack of U.S. action has real 
and tangible ramifications.
    A recent report by the Foundation for Defense of 
Democracies and the Roubini Global Economics found that between 
July 2012 and March 2013 Iran received $6 billion in payment in 
the form of gold for energy exports. My amendment to H.R. 850 
seeks to close this gold for gas loophole by requiring greater 
transparency and accountability from the President to ensure 
that the President implements sanctions on gold exports to the 
Government of Iran.
    I appreciate the support of this, and I yield back.
    Chairman Royce. Thank you.
    We go to Mr. Deutch of Florida.
    Mr. Deutch. Thank you. Chairman Royce, Ranking Member 
Engel, thank you for your commitment to advancing this 
legislation today. You acted swiftly to bring the bill up 
before this committee, and I hope that it continues to the 
floor as soon as possible because, as we all know, time is of 
the essence.
    We have seen how sanctions can cripple the Iranian regime's 
financial lifeline with strict implementation and enforcement. 
But we have also seen the regime become adept at finding 
mechanisms to skirt sanctions. This legislation will close 
those existing loopholes and make it more and more difficult 
for Iran to avoid the economic pain of sanctions.
    Today I offer three amendments, two of them addressing 
critical issues that dominate today's headlines, and a third 
continuing my work on divestment.
    As we saw yesterday, tensions in Iran are rising as 
Presidential elections draw near. The disqualification of 
former President Rafsanjani, a supporter of the 2009 
Reformists, is further proof that the Ayatollah is willing to 
violate any and all international election standards that might 
threaten his hold on power.
    According to reports from Rafsanjani's daughter, a reason 
for his disqualification is yet to be provided, but we knew 
that the unelected, unchecked Guardian Council would disqualify 
anyone seen as a threat to the regime, as well as any religious 
minority or women candidates.
    As Iran expert Karim Sadjadpour said recently, 
``Increasingly looking like Iran's Presidential election will 
be one man, one vote. That one man's name is Ayatollah 
Khamenei.'' In fact, this morning there are reports that 
members of Rafsanjani's campaign staff had been arrested.
    To prevent any chance of a post-2009 uprising, we are 
already seeing the regime's efforts to crack down on 
communication, with reports of drastically slowed internet 
speed and people unable to access technology necessary to help 
circumvent the regime's ban on international Web sites.
    News out of Iran reports that Reformist candidate and 
opposition Web sites have been filtered. Mr. Chairman, that is 
why the passage of my amendment today is so critical. With this 
amendment, Congress will send a clear message to the Iranian 
people that we stand with them in their quest for democracy, 
and we unequivocally support their right to free and fair 
elections.
    For years the Iranian regime has been engaged in a 
systematic campaign to deny the Iranian people access to 
unbiased information and to prevent them from exercising basic 
human freedoms of expression and assembly. And as we saw 
yesterday, as this election draws closer, the regime will try 
to cement its firm grip over the Iranian people. With elections 
just weeks away, it is vital that we do not let Iran achieve 
its goal of dropping an electronic curtain on its people.
    In response to what we have already seen happening in Iran, 
I am also pleased to offer an amendment that will expose those 
that continue to import to Iran technologies that are used for 
repression, tracking movements, monitoring of email and texts, 
and jamming of access to the internet, as more sanctions to 
those companies.
    As more and more citizens of Iran use the internet and new 
media as an alternative source for news and political debate, 
the regime has responded by monitoring and filtering internet 
content, limiting or suspending access to the internet, 
satellite jamming, outlawing foreign information. The amendment 
will also expedite licenses for those who seek to provide 
technologies that promote the free flow of information.
    Finally, Mr. Chairman, I would like to offer an amendment 
that furthers an issue that I have worked on for many years. In 
2007, the State of Florida passed the nation's first Iran 
divestment legislation requiring state pensions to withdraw 
funds from any company doing business in Iran's energy sector.
    My third amendment today will broaden the ability of states 
to divest their funds from companies who continue to support 
the Iranian regime. This amendment will also allow states to 
deny business licenses to companies engaged in business with 
Iran. Twenty-eight states now have divestment policy, and, as a 
result, billions of dollars of investment in Iran has been 
lost.
    Mr. Chairman, I want to thank you and the ranking member 
for working with us in such an inclusive bipartisan manner on 
this bill. The Nuclear Iran Prevention Act will continue to 
advance what has become the most rigorous U.S. sanctions policy 
to date, aimed at bringing maximum pressure on this regime and 
ultimately halting Iran's drive for a nuclear weapon once and 
for all.
    And I yield back the balance of my time.
    Chairman Royce. Well, thank you, Mr. Deutch. I do think 
your amendment sent a strong message, and I think it is 
interesting that this markup comes a day after, as you 
eloquently expressed, another example of this rigged sham of an 
election, one more case of evidence in terms of the way in 
which the will of the people in Iran has been overturned by 
this decision.
    We now go to Mr. Cotton. We recognize Mr. Cotton of 
Arkansas.
    Mr. Cotton. Thank you, Mr. Chairman. I want to express my 
thanks to you and the ranking member for your efforts on this 
very important bipartisan legislation. I agree with my 
colleague from Ohio that this legislation may be the last best 
chance to stop Iran's nuclear weapons program before an act of 
war, whether a passive act like a blockade, or an active act of 
war like an attack, may be necessary. I hope it will be 
successful. We don't know for sure, but it is certainly worth 
the effort.
    I have offered two en bloc amendments and will offer 
standalone amendments as well. All of these amendments have one 
underpinning. They are designed to accelerate and improve the 
reporting of this legislation. I think the timeline on which we 
are operating is very short. We are not operating on a 3- to 5-
year timeline. We are operating on a 1-year timeline, give or 
take a few months.
    I do believe this is necessary, because Western 
intelligence services, including our own, have a history of 
underestimating the timelines that covert weapons programs take 
to reach full development, for example, Saddam Hussein's 
program that was destroyed by Israel in 1981, thankfully.
    In my en bloc amendments, the first is an amendment to 
Section 102. It would require reporting about the net worth of 
certain Iranian officials. Iran suffers from double digit 
unemployment and staggering inflation, yet the elites of the 
regime continue to profit at the expense of common Iranian 
people, because of the regime's tight control over information. 
Many Iranian people don't know this. To put this on the 
internet I think would help ferment some of the civil unrest in 
the country.
    The second amendment to Section 301 would, again, help 
strengthen reporting requirements. It would eliminate the 
nuclear clock and the economic clock that Iran currently has. 
It would do things like require more reporting on weapons grade 
uranium production, plutonium production, Iran's capital 
accounts, foreign exchange reserves, and an estimated timeline 
with respect to its macroeconomic viability. I think this will 
provide sorely needed accountability and transparency.
    I am happy and honored to be offering this bipartisan 
amendment with my colleagues from Massachusetts and Illinois, 
and I will yield 2 minutes to the gentleman from Massachusetts 
at this point.
    Mr. Kennedy. Thank you, Mr. Cotton. It is a privilege to be 
able to--and it has been a privilege to be able to work with 
you on these amendments as well, and I want to thank and 
recognize the chair and the ranking member of the committee for 
putting forth such a strong bill that has received such strong 
bipartisan support throughout this committee and in the House.
    I just wanted to speak briefly and echo a bit of what Mr. 
Cotton had said. This amendment essentially speeds up the 
reporting timeline, so that Congress is able to get this 
critical information as quickly as possible. It requires a more 
detailed analysis of Iran's nuclear timeline, the procurement 
network, and the capital accounts, all necessary details to 
fully understand how effective our sanctions are and whether 
there are areas that need to be improved.
    Our amendment ensures that we are going to be able to move 
forward with tougher sanctions and that there is a thorough and 
consistent communication between the State Department and 
Congress regarding any new threats and developments. The United 
States has to continue to lead the way with these crippling 
sanctions and must continue to stay active and engaged in their 
implementation and oversight.
    And for a couple more comments, I will yield to Mr. 
Schneider.
    Chairman Royce. We recognize the gentleman from Illinois.
    Mr. Schneider. Thank you--and, again, I want to thank 
Congressman Cotton and Congressman Kennedy--for your help, Mr. 
Chairman. I am pleased to support the bipartisan effort of this 
bill and support the en bloc amendment.
    The provisions included in the legislation before us are 
some of the most important policy necessities we will consider 
before this committee. Sanctioning Iran and its affiliates is 
crucial to our national security strategy and those of our 
allies in the Middle East.
    With this in mind, I was quite happy to work with my 
colleagues on both sides of the aisle to improve upon the basic 
text of this bill, particularly in this amendment with 
Representative Cotton and Representative Kennedy in crafting 
compromise language that strengthens our oversight of the 
sanctions process and places a new emphasis on the speed and 
frequency in which we impose economic hardship on the Iranian 
regime.
    The amendment clarifies the distinct process and deliberate 
pace we must take to successfully degrade the Iranian regime's 
ability to develop a nuclear weapon and isolate them in the 
international community. The amendment would set in motion a 
process in which the administration will make an initial 
assessment of the current state of Iran's isolation, develop a 
strategic framework for how to address those challenges, and 
further report back to Congress on a regular interval on new 
emerging trends, challenges, and potential threats that are 
being continually observed and addressed throughout 
implementation.
    The renewed emphasis on reporting will allow us to better 
evaluate how and when sanctions are being effective and what 
tools are presenting us with the greatest opportunity to 
successfully deter Iran's aggression.
    We know that we are reaching a point of breakout in terms 
of Iran's capabilities. It is essential that we develop a 
sanctions and reporting process that is frequent, aggressive, 
and offers us the greatest mobility at addressing Iran's 
attempts to diversify its economy and circumvent U.S. and 
European efforts at isolation.
    Language included in this will not only provide an 
operational and strategic approach to sanctions, but will also 
require periodic reporting on what new emerging threats, 
challenges, and opportunities are being identified, so swift 
action can be taken to take full advantage of the points of 
exploitation as they emerge.
    I am also proud to offer an amendment seeking to report on 
Iran's efforts to diversify its economy and that will 
specifically evaluate the ability of Iran to diversify in such 
a way that will lessen the impact of sanctions on their 
economic and financial sections and their energy sectors.
    As we continue to go through this process of amendment and 
deliberation, I look forward to working with the chairman and 
the ranking member and my colleagues to further clarify our 
period reviews of how sanctions are being developed.
    Thank you for working in such a bipartisan way. And with 
that, I yield back my time.
    Chairman Royce. Well, we thank the gentleman from 
Massachusetts, as well as Illinois, and the gentleman from 
Arkansas, for their amendment.
    We now go to Ms. Meng of New York City. Ms. Meng is not 
present at the moment, so let us go to Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chairman. You know, I think 
most Americans are wondering whether this Congress can ever get 
along, so I just want to reiterate and thank the chairman and 
the ranking member for a very bipartisan approach to a very 
critical issue. And I join with my colleagues, first of all, to 
say I support the bill and the amendment and the amendments en 
bloc.
    And I will go on record again saying that this extreme 
regime is the largest state sponsor of terror. It cannot be 
allowed to acquire the world's most dangerous weapon, and, as 
we heard Under Secretary Sherman say, that a nuclear Iran would 
trigger a nuclear arms race throughout the region that would 
destabilize the world order. So thank you for strengthening the 
sanctions with this Act.
    I also want to thank Mr. Royce and Mr. Engel for advancing 
human rights. There is always this delicate balance. These 
sanctions are, rightfully, aimed at causing economic unrest in 
Iran. And we want these strategies to work in a way that the 
Iranian people, the unrest, that they turn against their 
government, not have sanctions that further support of a 
government. And so thank you for adding the advancement of 
human rights.
    I just wanted to give folks an example of what it is like 
for women in Iran. For example, women convicted of adultery, 
they are buried in the sand up to their shoulders and small 
stones are thrown at them until they die. That is just one 
example of the cruelty of the Iranian regime.
    And with this en bloc amendment is a provision that asks 
the Secretary of State to designate a position in the Bureau of 
Near Eastern Affairs to facilitate cooperation across 
departments for the purpose of advancing human rights and 
political participation for women in Iran, as well as to 
prepare evidence and information on women's rights violations 
to be used in identifying Iranian officials for designation as 
human rights violators.
    We need both men and women's voices to be heard to alter 
the actions of a very, very cruel, extreme Iranian regime.
    Thank you, Mr. Chair.
    Chairman Royce. Well, we thank the gentlelady for her 
contribution to this measure.
    And we go now to Mr. Poe of Texas.
    Mr. Poe. Move to strike the last word, Mr. Chairman. Thank 
you for the diligence on this bill. As the gentleman from the 
Bronx mentioned, 330 co-sponsors on a piece of legislation in 
Congress, I don't know that we have ever had that many agree on 
anything, and that should be a sign not only to the American 
people, and the Iranian people, but the rogue government in 
Iran, that we mean business about sanctions, and we are united 
on the issue of making sure that the little tyrant from the 
desert, Ahmadinejad, is not able to have nuclear capability, 
nuclear weapons.
    The supreme leader took a heavy hand against his own people 
after the 2009 massive protest and the illegal government of 
Ahmadinejad took control. The Iran Revolutionary Guard was let 
loose on the people, tramping down, stomping, and killing all 
because of the right of free speech.
    According to numerous accounts, one of those protesters was 
a young lady. Her name was Taraneh Mousavi. One of her friends 
described her as beautiful and very kind, and she had a warm 
voice and played the piano with great skill. Taraneh 
disappeared during the protests of 2009. She was arrested by 
security forces. Weeks later her mother received an anonymous 
call--the call in the night--from the government, a government 
agent, saying her daughter had been hospitalized listing 
injuries that could only come from an assault, a rape.
    When her family went to the hospital, Taraneh was not 
there. According to one account, the family was told by 
government thugs not to tell people when she disappeared nor 
any information about the kind of injuries she suffered. So 
when her charred body was discovered a month after her arrest, 
her family was again told not to hold a funeral ceremony for 
her and not to tell anyone about the way she had been killed.
    The report of Taraneh's rape and murder is not the only 
example of torture and abuse in Iran's prisons by the Iranian 
Government against its people. According to the U.N. Special 
Rapporteur's September 13 report, human rights defenders 
reported being arrested and held in secret for periods ranging 
from several weeks to 3 years without charge or access to legal 
counsel.
    They reported being subject to severe torture, beatings 
with batons, mock hangings, electrocution, rape, sleep 
deprivation, and denial of food or water. The State 
Department's Iran Human Rights Report of 2012 confirms exactly 
the same thing.
    The amendment that I have offered that is en bloc expands 
the list of those Iranian Government officials that this 
administration must report on. The new list includes those 
responsible for human rights violations, and there are a lot of 
those in Iran, human rights violations like the one that 
happened to Taraneh, such as those who work in the prisons and 
the Ministry of the Interior.
    Now, unless it would justify in a report why it believes 
they would not be subject to sanctions, the bill will force the 
administration to sanction these officials personally. It is 
important that we make it clear that our quarrel is not with 
the Iranian people. Our quarrel is with the government of 
Ahmadinejad and his being controlled by the supreme leader, who 
denies the people of Iran basic human rights.
    Many of those individuals are in different countries. Some 
are held, I think, hostage in Camp Liberty in Iraq. Many of 
their family members are in the United States. It is imperative 
that we make the little fellow from the desert, Ahmadinejad, 
understand that human rights violations are not tolerated, and 
that we support those who hope for a peaceful regime change in 
Iran.
    I thank the chairman for the time, and I yield back my 
time.
    Chairman Royce. We go now to Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Royce and Ranking Member 
Engel, for your leadership and for holding this markup on this 
important legislation, a legislation which becomes even more 
important every single day. I support the en bloc amendments 
and the underlying bill, and I particularly want to thank my 
friend, the gentlelady from Florida, for her excellent words 
and her amendment relating to human rights.
    The continuing threat that Iran poses to international 
stability is of paramount concern to the United States and to 
the world. Addressing this threat must be a top priority of 
U.S. foreign policy as Iran continues to defy the international 
community with its pursuit of nuclear weapons. In addition, the 
specter of violence and the suppression of basic human rights 
loom over the upcoming elections in Iran, just as they did in 
2009.
    The threat of an Iran with nuclear weapons capability is 
serious and must be prevented. According to a report from the 
International Atomic Energy Agency, Iran is steadily increasing 
its nuclear capability by installing new, more advanced 
centrifuges. If Iran is allowed to bring these centrifuges 
online, they will significantly reduce the time that is needed 
to produce enough weapons grade uranium to construct a nuclear 
weapon.
    In addition, Iran continues its construction of heavy water 
reactor, in defiance of U.N. Security Council regulations. The 
spent fuel from such a reactor could be reprocessed to produce 
plutonium. These conditions are unacceptable to the United 
States and to the international community.
    In June, Iran will hold its first Presidential election 
since 2009's fraudulent vote, which sparked widespread protest 
and worldwide condemnation. Thousands of demonstrators were 
jailed, injured, or killed at the hands of the Iranian 
Government, particularly by the Iranian Revolutionary Guard.
    This year, the prospects of a fair and democratic election 
in Iran remain remote. Of an estimated 700 candidates who have 
registered, the Iranian Government has restricted those who are 
able to run by excluding a vast majority of those it deems to 
be disloyal to the regime.
    Regardless of the outcome of this year's election, it will 
do little to slow the expansion of Iran's nuclear program. 
Decisions over the program's future will remain in the hands of 
the supreme leader who continues to stifle all attempts at a 
diplomatic solution. It is critical, therefore, that efforts to 
curb Iran's nuclear ambitions and its abuses of human rights be 
enhanced to exert increased pressure upon the regime.
    The Nuclear Iran Prevention Act of 2013 will impose harsher 
penalties for violations of human rights of the Iranian people. 
It will broaden the scope of these sanctions to make the 
Iranian Government more accountable for human rights violations 
and impose harsh penalties on financial institutions that 
provide aid to those who commit these violations.
    This bill will strengthen existing sanctions by requiring 
other nations to reduce their imports of Iranian crude oil by 1 
million barrels within 1 year's time, and authorizes the 
President to penalize foreign nationals who engage in 
significant trade with Iran. It also calls for an expansion of 
the blacklisting of industries that are strategically important 
to the Iranian regime.
    This bill also recognizes that we cannot accomplish our 
goals by acting alone. It calls on the administration to work 
closely with our European allies to curb Iranians' financial 
capabilities and to provide a comprehensive U.S. strategy to 
weaken Iran's economy and to prevent Iran from further 
developing a nuclear capability.
    The message that we send must be clear and unequivocal. A 
nuclear armed Iran will not be tolerated, and the United States 
will stand on the side of democracy and freedom. A clearly 
defined national strategy that further pressures Iran to end 
her nuclear ambition and strengthen economic sanctions is 
absolutely necessary.
    I thank, again, the chairman for his leadership. I thank my 
colleagues for their excellent amendments, and the ranking 
member, and I yield back the balance of my time.
    Chairman Royce. We go now to Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
congratulations to you and to Ranking Member Engel for working 
together and coming up with a very good package for us. This 
legislation focuses on exercising economic power to provide 
incentive for Iran's mullah regime to back away from the 
development of a nuclear weapon.
    This legislation is a good step in the right direction, but 
it is not going to make us safer. At best, we will get the 
status quo--no nukes. To make the world safer, we must 
understand that the world will not be safer until the mullah 
dictatorship is replaced by a government that is not dedicated 
to destroying Israel or supporting terrorists throughout the 
Western world. That will require us to support those brave 
souls who live in Iran, who seek to change the regime in that 
country.
    This administration has not been aggressive in supporting 
those who are opposing the mullah regime in Iran, and we have 
heard several descriptions about the last elections and how the 
students were pleading for help.
    And they did plead for help, and America's weak response to 
the suppression and the brutal putdown of those students who 
were requesting an honest election--our actually weak response 
was embarrassing to us, and certainly did not in any way 
encourage those people who really seek democracy in that part 
of the world to have any faith that we would back them up in 
their efforts.
    There are repressed--not only are there just regular 
Iranians and the push for democracy, but we also have to 
realize within Iran there is other leverage to try to come to a 
more peaceful regime, and that is we can support those minority 
groups in Iran that also would like some independence and seek 
their own freedom.
    There are more Kurds in Iran, for example, than there are 
in Iraq. There are millions upon millions of Azaris. There are 
Baluch in the southern part of the country and other various 
groups that deserve our support in their struggle against the 
repression of the mullah regime.
    We aren't even broadcasting to Iran in their languages. We 
need to convince the people of Iran and of every ethnic makeup 
that we are on their side in their struggle for freedom. It is 
this struggle for freedom and its success that will make the 
world a safer place by replacing brutal dictators who are 
willing to murder their own people with people who are trying 
to make their country better and will live in peace and respect 
the freedom of other peoples in the world.
    So, Mr. Chairman, this is a great step in the right 
direction. But if we are going to really tackle this problem, 
it is going to require more than just a step in the right 
direction. It is going to require--and a prevention of a 
nuclear armed Iran, but it is to require us to support those 
people who struggle for freedom in that country as well.
    Thank you very much. I yield back the balance of my time.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    We now go to Ms. Gabbard of Hawaii.
    Ms. Gabbard. Thank you very much, Mr. Chairman and Ranking 
Member Engel, for introducing and bringing this very important 
bill before the committee. As a new member of the committee, I 
have been impressed and very encouraged by the level of 
bipartisanship that has been displayed in the quick progress of 
this important bill. And I am also proud to be a co-sponsor of 
the underlying measure and will be supporting it as we move it 
forward today.
    As we have seen other attempts being made in the past to 
prevent Iran from acquiring a nuclear weapon, seeing the lack 
of progress that has been made, I am encouraged to see this 
bill move forward because it will add and tighten the sanctions 
greatly on Iran. It is absolutely vital that the United States 
take steps to curb Iran's progress in this direction and 
believe that the bill's provisions to broaden economic 
sanctions and target human rights violators will help to 
increase this pressure.
    Additionally, we know that Iran and North Korea have 
developed a close working relationship in many of its ballistic 
missile programs. For constituents in my district in Hawaii, as 
well as places like Guam, CNMI, and Alaska, as well as our 
allies in the region, this is an issue of great importance.
    And just as we have seen great progress and support on 
moving this measure forward, Mr. Chairman and Ranking Member, I 
hope we can also work together to move forward your bill, H.R. 
1771, the North Korea Sanctions Enforcement Act, through the 
committee and to the floor.
    The work done on this measure absolutely shows that we can 
come together to make progress on such important issues that we 
are united on and that we see our challenges facing our 
country, and I look forward to being able to continue to work 
with you as we take a similar path on dealing with North Korea.
    Thank you, Mr. Chairman.
    Mr. Smith [presiding]. The Chair recognizes Mr. Castro from 
Texas.
    [No response.]
    Mr. Smith Mr. Keating from Massachusetts.
    Mr. Keating. Thank you, Mr. Chair. I would like to 
congratulate the committee on the timeliness of this important 
legislation, and I would also like to express my gratitude for 
the inclusion of a provision that Mr. McCaul and myself worked 
on together in a bipartisan manner.
    Under our amendment, the Secretary of State is required to 
make a determination as to whether Iran's Revolutionary Guard 
Corps is a foreign terrorist organization, and, if so, to 
implement sanctions. However, if the Secretary should determine 
that the Iranian Revolutionary Guard Corps is not a foreign 
terrorist organization, our amendment requires that not only 
must the Secretary provide a report that details how he came to 
that conclusion, but also that sanctions currently in place 
against FTOs be applied to Iran's Revolutionary Guard Corps' 
Quds Force.
    The IRGC's covert Quds Force presents a direct and 
immediate threat to the United States and our allies. They are 
responsible for some of the deadliest attacks in recent 
decades. Moreover, these attacks and assassinations take place 
outside of Iran's borders. Today they continue to support and 
oversee weapons deliveries to pro-Iranian factions, more 
recently to the Assad regime in Syria, and Hezbollah in 
Lebanon. In the course of just a year, the Quds Force influence 
has been witnessed in attempted and successful terror plots in 
Turkey, Pakistan, Thailand, Azerbaijan, India, Georgia, Kenya, 
and Bulgaria.
    Subjecting the Quds Force to further sanctions can only aid 
our attempts to limit their resources and, in turn, the danger 
that they present.
    So I applaud today's markup, and I applaud the important 
legislation that we have, and I thank the chairman and ranking 
member for their inclusion of this important amendment.
    With that, I yield back my time.
    Mr. Smith. Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair. I, too, join with 
voices of all of my other colleagues in commending the chair, 
Mr. Royce, and the ranking member, Mr. Engel, for bringing 
forth this bipartisan measure. I think it is really important 
that the American public hear that under their leadership we 
have come together to support this legislation.
    I not only believe that we have come together to support 
this legislation but that the administration supports this 
legislation and that all Americans support this legislation. 
Not only is it really important to Israel that we not have an 
Iran with nuclear weapons, but this legislation sends a message 
to all of the other countries of the Middle East who are also 
terribly threatened by an Iranian nuclear power that this shall 
not be tolerated, and that the United States will play a 
leadership role in protecting and supporting all nations of the 
world in moving Iran away from nuclear weapons.
    I, again, want to commend the leadership for bringing us 
together, and I also want to support all of the amendments en 
bloc.
    And I yield back my time and thank you.
    Mr. Smith. Do any other members seek recognition?
    [No response.]
    Chairman Royce [presiding]. Do any other members, again, 
wish to speak on either the en bloc amendments or the 
underlying bill?
    [No response.]
    Chairman Royce If not, the question occurs on agreeing to 
the amendments being considered en bloc. All those in favor say 
aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendments considered en bloc are agreed to.
    Before taking up other amendments, the Chair has an 
amendment at the desk, and the clerk will report the amendment. 
And I would hope, if the clerk's office could distribute the 
amendment as well at this time.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 850 offered by Mr. Royce of California. On 
page 29, line 19, strike ``the date that is 90 days after such 
date of enactment'' and insert ``May 22, 2013.''
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. I recognize myself to explain the 
amendment. Section 205 of the bill imposes sanctions on certain 
transactions in foreign currencies. This section seeks to 
prohibit the conversion and repatriation of Iran's overseas 
foreign currency reserves back into Iran.
    The bill authorizes the President to impose sanctions on 
any foreign bank involved in facilitating transactions in 
foreign currencies over which it does not have primary 
jurisdiction, on behalf of the central bank of Iran, or another 
designed Iranian bank.
    The objective is to further enable the administration to 
render Iran's foreign exchange reserves inaccessible, make it 
impossible for those reserves to come back into Iran. This is a 
key provision in the bill. There are concerns that waiting for 
enactment would allow Iran to engage in this activity in the 
interim.
    Therefore, this amendment changes the enactment date of the 
provision to today's date. This will bolster our ability to 
target this activity, and, most importantly, put banks on 
notice that as of today they will be sanctioned for helping 
Iran access their overseas hard currency. And I would ask my 
colleagues' support on this measure.
    Do any other members wish to be recognized on this 
amendment, on the date change?
    Mr. Grayson. Yes. I would like to recognized, Mr. Chairman.
    Chairman Royce. Mr. Engel.
    Mr. Engel. Yes. Thank you, Mr. Chairman. I agree with 
everything you've said about this amendment. I think it is very 
important that we enact it. I know that our colleague, Mr. 
Sherman, was working on this legislation as well, on this very 
important issue as well. And, again, I think this is something 
that is bipartisan and very, very important to be added to this 
bill.
    I think it closes a loophole, and I urge its--I urge a yes 
vote for this amendment, and I yield back.
    Chairman Royce. I thank the gentleman from New York.
    We will go to Mr. Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. I want to show the 
committee the reality of living as a political prisoner in 
Iran. Here we have two young men that were hung publicly for 
just being political prisoners opposing the Iranian Government, 
the little fellow from the desert, and his oppression of human 
rights to people of Iran. And, unfortunately, these are not the 
only two that were hung in Tehran in recent years for being 
opposed to the regime.
    And I yield back. Thank you, Mr. Chairman.
    Chairman Royce. I thank the gentleman.
    We go now to the gentleman from Florida, Mr. Grayson.
    Mr. Grayson. Mr. Chairman, I understand and agree with the 
principle involved here, in other words, what it is that I 
think that the chair is trying to accomplish through this 
amendment. However, this is a bill that, among other things, 
can be enforced by a penalty of 20 years in prison. I believe 
that this amendment would represent a violation of the ex post 
facto provision in the Constitution.
    What you are contemplating here is to say that activities 
that take place before the enactment of this bill will become 
illegal upon the enactment of this bill dating back to May 22, 
2013. I don't see any way to reconcile that, unfortunately, 
with the ex post facto prohibition in the constitution. I would 
point out that this provision appears not to be severable from 
the Act, and, arguably, puts the entire Act at risk for 
including it.
    I was not aware of this amendment before it was offered 
today. I would have been happier to be able to have addressed 
this before today. I regret the fact that I have to raise this 
point at this now late date. But given the fact that I didn't 
see this amendment until literally 10 minutes ago, there was no 
earlier opportunity.
    If there is some way to make this work, I would love to see 
this in an amendment before this bill goes to the floor. But I 
think putting this in the bill at this point risks torpedoing 
the entire bill.
    Chairman Royce. Let me respond to the gentleman, if I 
could. I have no reason to expect that this bill would be 
implemented in a way that would be unconstitutional. However, I 
would be happy to work with the gentleman on this issue going 
forward.
    In the meantime, let me recognize some of the other members 
that are here. Mr. Cicilline.
    Mr. Cicilline. Mr. Chairman, I would offer a friendly 
amendment that I think might accomplish that. If the amendment 
were to insert instead, ``The date of enactment shall be the 
date upon which the legislation is passed,'' I think we would 
avoid what my friend from Florida has raised and would not give 
an additional 90 days, but it would happen on the day of 
enactment.
    Mr. Grayson. Would the gentleman yield to me? Would the 
gentleman from Rhode Island yield to me?
    Mr. Cicilline. Sure. Certainly.
    Mr. Grayson. I agree that if the penalties under this Act 
do not apply to any action before enactment, then the ex post 
facto provision has not been violated.
    I yield back.
    Chairman Royce. Again, so that the members of the committee 
understand the consequences, the provision in the bill, by 
changing this date of enactment, would enable the 
administration, which I believe could still utilize this tool 
and do it in a constitutional way, to prevent Iran during this 
interim period, before the legislation is finally enacted, from 
repatriating its overseas earnings.
    And the difficulty of the situation is that in advancing 
this bill out of committee today there is going to be an 
enormous pressure inside the regime to find ways to circumvent 
this law. And the most effective way to do so would be to 
immediately begin a process through third parties of trying to 
figure out the repatriation scheme.
    So if we stick with the amendment that I am suggesting, 
which would make the date--it is effective the date it is 
passed out of committee--we do a lot to offset the ability of 
the Iranian central bank to circumvent the sanctions.
    But let me go to Mr. Cotton of Arkansas to recognize him 
for 5 minutes.
    Mr. Cotton. Thank you, Mr. Chairman. I would like to speak 
in support of this amendment, which I had originally planned to 
introduce with Mr. Sherman. I am not the distinguished lawyer 
that the gentleman from Florida is. I only practiced for a 
couple of years before my skills required me to leave and join 
the Army as an infantry officer.
    I understand concerns about the ex post facto clause as 
well. I do think, though, that the case law is somewhat 
complicated on that, and this is not final passage of the bill 
into law. We have several quarters left to go in this game. We 
have the Rules Committee, we have the floor, we have a Senate 
version, we will have a conference committee to address, in 
light of Supreme Court case law in the ex post facto clause.
    I would encourage all of my colleagues to vote yes. As the 
chairman said, this helps indicate the intent of this 
committee, this Congress, to hold the Iranian regime to the 
strictest standards possible, and then work with committee 
counsel, as well as legislative counsel, to address any 
concerns that may or may not arise.
    When I left the law and went to the infantry in Iraq, I was 
a platoon leader in the 101st Airborne where, as Mr. McCaul 
said earlier, the Iranian regime, the Quds Force in particular, 
were shipping in a particularly lethal kind of improvised 
explosive device, explosively foreign projectiles, that would 
kill any soldier that they hit. Our armor simply could not 
resist them.
    I had to tell soldiers of mine that came in, when they 
asked about roadside bombs, to trust your armor and trust your 
leadership. And they asked me, ``What about EFPs from Iran?'' 
and I said, ``Just hope today is not your today.'' That is the 
kind of enemy against which we are fighting this multi-front 
campaign. And the only thing they understand is iron will, and 
I think this amendment shows the iron will of the committee to 
stop or take all measures necessary to stop the Iranian regime 
from obtaining nuclear weapons.
    I urge a yes vote.
    Mr. Grayson. Will the gentleman yield?
    Mr. Cotton. I will yield.
    Mr. Grayson. Thank you. Listen, I indicated earlier that I 
think that this is a good idea if it were constitutional. I 
think it is a very dangerous precedent to set that we pass a 
provision that is on its face unconstitutional for the sake of 
showing an iron will, whatever that may mean.
    On the contrary, our strength in this country comes from 
the fact that we are a nation of laws, and we need to respect 
the highest law of all. That is the Constitution.
    Mr. Cicilline has suggested one potential fix for this 
provision. I would like to suggest another. If the chairman 
would consider this, I think that if we had a severance 
provision in this amendment, then that might potentially remedy 
the problem.
    We would still have to deal with the possibility that the 
courts might rule that our severance provision is itself not 
severable, but, in any event, perhaps the chairman would 
consider this amendment to your amendment that would read as 
follows: ``Should this provision be found unconstitutional, it 
is severed from the remainder of the bill.''
    That means that at least we have allowed for that 
possibility and done so in such a way so that a finding that 
this amendment is unconstitutional, which, frankly, I think is 
more likely than not, that that would not end up destroying all 
of the effort this committee has put into this bill.
    I yield back.
    Chairman Royce. If I could ask the gentleman from Arkansas 
to yield.
    Mr. Cotton. Yes, I will yield.
    Chairman Royce. Might I suggest to Mr. Cicilline, if in 
substitute to your amendment, if Mr. Grayson's amendment was 
offered, I would accept Mr. Grayson's amendment, if that--if 
you consider that appropriate, if you withdraw your amendment?
    Mr. Cicilline. Yes, Mr. Chairman, I will withdraw my 
amendment, and I will second Mr. Grayson's amendment.
    Chairman Royce. I thank the gentleman. Let me comment that 
it is not without precedent, Mr. Grayson. I understand your 
point, but it is not without precedent in that our legislation 
on CISADA, and the first legislation we passed on Iran 
sanctions, did have this provision. But, Mr. Grayson, as you 
point out, later in the process that was adjusted.
    Let us accept your amendment, Mr. Grayson, or why don't we 
go for a vote on Mr. Grayson's amendment at this time. Do you 
have an amendment at the desk, Mr. Grayson?
    Mr. Grayson. I will hand it to the chair, because I am not 
familiar with exactly where it needs to end up.
    Chairman Royce. We are going to ask the clerk to read the 
amendment. Madam Clerk. Now, what I am going to suggest, Madam 
Clerk, is that you read the amendment, and then the clerk's 
office make copies of the amendment for the members, and then 
we will----
    Mr. Grayson. That is language to be added.
    Chairman Royce. And I am going to ask that leg counsel, if 
you hand it to leg counsel after you read it.
    Ms. Marter. Grayson amendment to the Royce amendment to the 
amendment in the nature of a substitute to H.R. 850. Should 
this provision be found unconstitutional, it is severed from 
the remainder of the bill.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. And I would ask, then, that the clerk's 
office make copies after review by leg counsel. I think the 
terminology is straightforward enough there, but we will have 
them review it. And we could do technical corrections later 
anyway, so let us make those copies.
    And now I recognize for 5 minutes the gentleman from 
Arkansas, Mr. Cotton, on this amendment.
    Mr. Cotton. Appreciate the amendment offered by the 
gentleman from Florida. I think a severability clause is the 
best way at the moment to address his concerns. One question I 
have, though, is, should that provision be held 
unconstitutional, and, therefore, severed, would we revert back 
to a date of enactment, or would we have no date to go into 
effect and, therefore, make the provision ineffective?
    And I would yield to the gentleman from Florida.
    Chairman Royce. Mr. Cotton, we would have the date of 
enactment as the controlling date in that case, and we will 
work with legislative counsel to so designate.
    Mr. Cotton. I yield back the balance of my time.
    Chairman Royce. Any other commentary on this amendment? The 
gentleman from California.
    Mr. Sherman. I think this due date provision is 
constitutional. It does not relate to a criminal sanction so 
much as civil sanctions. I think that we ought to explore 
adding just a general boilerplate severability provision for 
the whole bill. That would be a standard part of many major 
pieces of legislation.
    I don't think there is anything in the bill that is 
unconstitutional. I don't think any of the amendments will 
cause it to be unconstitutional. But I would sure hate to lose 
the whole bill because there was some legal argument I hadn't 
thought of.
    Chairman Royce. Let me recognize Mr. Grayson from Florida 
for any thoughts on that resolution.
    Mr. Grayson. Well, with regard to what the gentleman from 
California said, the penalties provision in the bill that we 
are voting on specifically refers to another Act, incorporates 
it by reference, and that other Act provides for a 20-year 
criminal penalty. So I have to respectfully disagree with the 
gentleman from California.
    Chairman Royce. And if I could----
    Mr. Sherman. I believe I was recognized for----
    Chairman Royce. I will allow the gentleman from California 
to proceed.
    Mr. Sherman. I thank the gentleman from Florida for his 
comments, and I think it illustrates why we should have his 
severability provision on this particular provision. Mr. Cotton 
is right that we should indicate that if for some reason the 
particular effective date provision is found to be 
unconstitutional, the date of enactment should be the 
replacement effective date, and that a general severability 
clause be added to the end of the bill.
    And I thank the chairman for seeing the importance that we 
make sure that banks aren't rushing to ``beat the deadline.'' 
Mr. Cotton and I were going to introduce an amendment very 
similar to the chairman's amendment, which shows that we are 
all thinking along the same lines.
    So I think Mr. Grayson is right, Mr. Cotton is right, the 
chairman is right, and we can put together a bill that will 
both deter those banks that might try to act between now and 
date of enactment, and at the same time protect everything in 
the bill from any claim of constitutional violation.
    Chairman Royce. If the gentleman will yield.
    Mr. Sherman. I would yield.
    Chairman Royce. I believe that is correct. But I am going 
to raise with Mr. Grayson the issue of a general severability 
clause, because I believe it will accomplish what he wishes to 
accomplish with his amendment, and, as you have suggested, Mr. 
Sherman, will also clarify in the case of any other provisions 
in the measure that might subsequently be found to be 
unconstitutional, that it would satisfy that concern as well.
    Let me go, again, to the gentleman from Florida and ask Mr. 
Grayson for his thoughts on simply working with leg counsel for 
a vote later today on an amendment which we will have before 
us, Mr. Grayson, which you could be involved in helping to 
draft, which would be a more general provision of clarification 
on the severability clause.
    Mr. Grayson. Mr. Chairman, I agree with you and the 
gentleman from California that a general severability clause 
is, in some respects, preferable to the narrow severability 
clause that I just drafted. I also agree with the gentleman 
from California and the gentleman from Rhode Island that we 
should try to specify what would happen in the event that a 
retroactive application of this provision was found 
unconstitutional, what the effective date would be.
    So I agree with that suggestion as well. I am very 
agreeable today.
    Chairman Royce. I assume that you would concur that it 
would be date of enactment. Very good.
    Will the gentleman, then, withdraw his amendment at this 
time, with the understanding that we will work with leg counsel 
on that language as we just discussed?
    Mr. Grayson. Well, respectfully, Mr. Chairman, I think that 
it is the amendment that was initially offered that should be 
withdrawn, with the understanding that it will be voted on as 
we discussed just now in some slightly altered form later 
today.
    Chairman Royce. I am going to withdraw my amendment, then, 
also at this moment. We will consider it in a new form, which I 
think will be mutually agreeable to the members of the 
committee.
    Mr. Grayson. Yes, Mr. Chairman.
    Chairman Royce. All right. Let us continue. Are there any 
further amendments?
    [No response.]
    Chairman Royce Mr. Grayson, I think you have an additional 
amendment at the desk.
    All right. I am going to ask the clerk to report your 
amendment.
    Ms. Marter. Which amendment, Mr. Grayson?
    Mr. Grayson. I believe we are going to start with Grayson 
Number 109. Is that all right, Mr. Chairman?
    Chairman Royce. 109. Clerk, if you would read that 
amendment?
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 850 offered by Mr. Grayson of Florida. Page 
16, line 5, insert ``or a foreign central bank'' after 
``foreign financial institution.''
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. The Chair recognizes the author for 5 
minutes to explain the amendment. And let us have the amendment 
distributed to the members.
    Mr. Grayson. Thank you very much. The general purpose of 
this amendment is to make sure that the term ``foreign 
financial institution,'' as described in this legislation, and 
the particular provision that we discussed, which is Section 
202, includes foreign central banks. I believe that the intent 
was to have it include foreign central banks, but it does not 
actually do so. Regulations that were promulgated by the 
administration leave the question at best cloudy.
    The amendment at the desk is a simple one. It would ensure 
that foreign central banks are sanctioned for facilitating 
significant financial transactions on behalf of companies that 
are owned or controlled by designated Iranian nationals.
    Section 202 of this bill is short and sweet. It says that 
if you are a foreign financial institution and helps out 
companies owned by the bad guys, you will be sanctioned. You, 
as a foreign financial institution, will not be permitted to 
open or maintain correspondent or payable accounts in the 
United States. You won't be able to receive deposits from or 
make payments on behalf of a foreign financial institution, and 
your customers will be effectively shut out of banking 
activities within the United States. That is exactly what we 
hope to accomplish in this bill.
    Unfortunately, we, in drafting this initial bill, missed an 
extremely important group of foreign financial institutions 
when we defined this term. We took a shortcut. In 22 USC 
Section 8801(a)(5), the governing definition for the statute, 
we said that foreign financial institution says, what the 
Secretary of the Treasury says it says and means pursuant to 22 
USC Section 8513. In other words, we delegated the definition 
to the Secretary of the Treasury.
    Well, what that says is that ``foreign financial 
institution'' means whatever the Secretary of the Treasury says 
it means. And Secretary Geithner, when he got around to making 
a list of what a foreign financial institution constitutes late 
last year, and the Department finally published it on November 
8, and published it at 31 CFR 561.308, created a long list. And 
it says it is not limited solely to the items on the list, but 
it does get so specific that it spells out things like employee 
benefit plans and dealers in precious metals, stones, or 
jewels.
    Clearly, the Treasury Department put some thought into the 
list. There are 17 specific entities that are singled out, but 
foreign central banks are conspicuously absent. And, therefore, 
by the delegation and law that is already in existence, it is 
by implication excluded from the definition of a foreign 
financial institution.
    It is interesting that Congress, when drafting the Fiscal 
Year 2012 NDAA, decided to include an entire section covering 
foreign central banks' financial transactions for the sale or 
purchase of petroleum or petroleum products with Iran. In fact, 
other than financial institutions located in Iran, foreign 
central banks were the only other entities explicitly mentioned 
and addressed within the section to all 45 sanctions that deal 
with imposition of sanctions with respect to the financial 
sector of Iran.
    The Treasury, in its own wisdom, decided to choose to gloss 
over those banks most directly tied to a nation in its 
definition of foreign financial institutions. The problem here 
is easy to solve. By not including foreign central banks in 
this section, and by not explicitly mentioning them in the 
Treasury CFR definition, the President, unfortunately, unless 
we act, will not be required by the legislation we pass today 
to punish nations whose foreign central banks facilitate 
transactions on behalf of companies owned by designated 
Iranians.
    If President Obama or the State Department wished to ignore 
such actions that would otherwise lead to sanctions with regard 
to another financial institution, they may. They would be free 
to be given a free pass to any country they wish for whatever 
reason they wish on account of exclusion of foreign central 
banks from this important provision.
    I would urge my fellow committee members to join me in 
clarifying for the President, and for his Treasury Department, 
and for his State Department, exactly what a foreign financial 
institution looks like; specifically, the fact that it includes 
a foreign central bank.
    I urge you to join me in supporting this amendment.
    Thank you. I yield back.
    Chairman Royce. Thank you. I will attempt to articulate 
Treasury's position, and then I will ask Mr. Grayson if he 
finds these arguments compelling.
    But your amendment would amend Section 202 of the bill and 
would have the sanctions apply to foreign financial 
institutions and a foreign central bank. Now, from the 
perspective of Treasury, central banks, as they have 
articulated this, already are included in the definition of 
foreign financial institution. Okay?
    Central banks are already included in the definition of 
foreign financial institutions. So then you go to the 
definition of foreign financial institution, 561.308. The term 
means any foreign entity that is engaged in the business of 
accepting deposits; making, granting, transferring, holding, or 
brokering loans or credits; or purchasing or selling foreign 
exchange securities, commodity futures, or options; or 
procuring purchasers and sellers of as a principal or agent.
    It includes, but is not limited to, depository 
institutions, banks, savings banks, money service businesses, 
trust companies, securities brokerages, dealers, commodity 
futures options brokers and dealers, forward contract and 
foreign exchange merchants, securities and commodities 
exchanges, clearing corporations, investment companies, 
employee benefit plans, as you pointed out, dealers in precious 
metals, stones, jewels, holding companies, affiliates, or 
subsidiaries.
    Now, those that implement these laws every day tell us that 
a foreign central bank fits under this definition, and they 
point out that the term foreign financial institution, the 
Treasury already says includes central banks, appears very 
often in U.S. law.
    And now here is the problem, from their perspective, on 
this. If you spell it out here, some say you may create 
confusion in the law. Lawyers will ask, why is foreign central 
bank noted here, but not elsewhere? So from their vantage point 
on this, it, in their minds, fixes a problem that doesn't 
exist, but may actually create a problem for them given that 
perspective.
    I would ask the gentleman from Florida his thoughts on 
that.
    Mr. Grayson. Well, I thank the chairman for spelling out an 
interesting and perhaps valid perspective on the amendment that 
has been offered. I would point out to the chairman that, with 
regard to the provision that we have been discussing, Section 
561.308 of Title 31 of the Code of Federal Regulations, it 
would have been extremely simple--extremely simple--for the 
Secretary of the Treasury to actually include in this long, 
long list of institutions the foreign central banks themselves.
    The Treasury Secretary chose not to do that. One could 
argue that at this point in saying that foreign central banks 
are included, when not having included it in a promulgated 
regulation by the Secretary himself, arguably the Secretary is 
speaking out of both sides of his mouth.
    However, with regard to the specific language that is being 
discussed, I understand and I take the chairman's point that 
having foreign financial institutions be appended by ``or a 
foreign central bank'' could arguably imply that a foreign 
central bank is in fact something different from a foreign 
financial institution.
    We are trying to make it clear that a foreign central bank 
is included in the definition of foreign financial institution, 
rather than excluded or not enumerated in the way that the 
Treasury has done.
    So what I would suggest, if the chairman would entertain 
this at this point, would be instead of saying ``foreign 
financial institution or a foreign central bank,'' we say 
``foreign financial institution, including, but not limited to, 
a foreign central bank.''
    Chairman Royce. I think the gentleman has devised a 
framework here that works. And in an abundance of caution, I 
think the committee is happy to accept your amendment with 
those changes.
    Mr. Collins. Mr. Chair?
    Chairman Royce. Let me recognize the gentleman from 
Georgia.
    Mr. Collins. I do have a concern that just came up in 
listening to the gentleman from Florida. I appreciate his 
concern, but I am concerned even with this language you could 
be setting up a duality in the system here in which, one, you 
are setting it up as something different than a financial 
service, a foreign financial institution here.
    I appreciate the concern that the gentleman is raising. 
However, at this point in time, I think by amending it to add 
that you are adding more confusion to this, and I would, at 
this point, be cautious at best of approving this moving 
forward, especially in light of what the chairman has spoken of 
as Treasury's definition of this.
    I appreciate his intent and his amendment here. I am just 
afraid we are----
    Chairman Royce. I appreciate the comment from the gentleman 
from Georgia, because he has raised an issue that perhaps the 
Treasury Department would like to opine on in terms of the 
changes in the wording. What I am going to suggest is we accept 
the amendment with this change, and then work with Treasury, 
and I will work with Mr. Grayson's office, and work with your 
office as well, Mr. Collins, to make certain that we end up 
with the intent that Mr. Grayson is laying out here in the 
final legislation.
    Is that acceptable to you, Mr. Collins?
    Mr. Collins. I would assume, Mr. Chairman, you are speaking 
of maybe before Rules? Is that when we are looking at actually 
adding or changing language if we are amending this bill now?
    Otherwise, I would state at this point, if there becomes a 
need to change--I would rather err, personally, on the side of, 
if there is a need to change it from this, change it later, 
since he has raised a good point, we will ask; instead of 
changing it now and then going back to the process.
    Chairman Royce. Well, Mr. Collins, I believe we are going 
to have multiple opportunities to change this bill, including 
before Rules, of course. And I think at this point we would 
probably be best served by accepting this amendment, working 
with Treasury, because, Mr. Collins, if Treasury indicates that 
they don't have a problem with this, then I think we have 
solved the problem.
    Mr. Collins. Mr. Chairman, I will defer to your wisdom.
    Mr. Smith. Mr. Chairman?
    Chairman Royce. Yes. Appreciate that.
    We will go now to Mr. Smith of New Jersey.
    Mr. Smith. And I do think if we factor in all of this, if 
we were to construe this to be a restatement, which Treasury 
seems to indicate it is, it would avoid, I think, some of the 
unwitting consequences you alluded to, so a restatement of what 
is already current law.
    Chairman Royce. Without objection, the committee will now 
consider the amendment to the amendment in the nature of a 
substitute to H.R. 850 offered by Mr. Grayson of Florida, as 
modified by Mr. Grayson.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. All those in favor please signify by saying 
aye. All those opposed? Without objection, in the opinion of 
the Chair, the ayes have it and we will proceed to the next 
amendment. Are there other amendments to be offered?
    Mr. Cotton. Mr. Chairman.
    Chairman Royce. Mr. Cotton for an amendment.
    Mr. Cotton. I would like to call up Cotton-2.
    Chairman Royce. Chair reserves a point of order and 
recognizes the author for 5 minutes to explain the amendment.
    Well, Clerk, would you read the amendment?
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 850 offered by Mr. Cotton of Arkansas. Page 
13, line 4, strike ``180 days'' and insert ``60 days''. Page 
14, line 15, strike ``180-day'' and insert ``60-day''. Page 14, 
line 18, strike ``180-day'' and insert ``60-day''.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. Mr. Cotton.
    Mr. Cotton. Thank you, Mr. Chairman.
    This is a relatively straightforward amendment. Section 201 
of the underlying text provides for sanctions against persons 
engaged in certain significant non-oil international trade with 
Iran, unless that trade falls significantly in 180 days.
    My amendment would simply change that period from 180 days 
to 60 days. I believe that this information is largely known. 
The fact that this Congress is pursuing more sanctions against 
Iran is largely known. The opportunities to reduce trade are 
significant and straightforward, and simply put, if you don't 
want to be sanctioned by the United States don't engage in 
trade with a theocratic tyranny.
    I yield back the balance of my time.
    Chairman Royce. Do any other members seek recognition on 
Mr. Cotton's amendment?
    Okay. The Chair withdraws the point of order. Hearing no 
further requests for recognition, the question occurs on the 
amendment. All those in favor say aye.
    Mr. Grayson. Mr. Chairman, I'd like clarification of what 
we're voting on right now, if you don't mind.
    Chairman Royce. Absolutely. Cotton-2 is the amendment 
before us, and I think we have that amendment--I think that 
amendment has been distributed.
    Mr. Grayson. Yes. Thank you, Mr. Chairman.
    Chairman Royce. All those in favor please signify by saying 
aye. Opposed? In the opinion of the Chair, the ayes have it, 
and the amendment is agreed to.
    Are there any other amendments? Mr. Grayson, I think you 
have another amendment at the desk, and in the interim I'm 
working on the amendment that I've offered with your suggested 
change.
    Mr. Grayson. Thank you, Mr. Chairman.
    Chairman Royce. So, if we could go to your amendment, that 
would be appropriate.
    Mr. Grayson. Yes, I have other amendments. My understanding 
is that the chair is calling the amendments in an order decided 
by the chair, so I will go ahead with one of these amendments 
at this point.
    Mr. Chairman, I'm calling Grayson-102.
    Chairman Royce. Madam Clerk, could you report the 
amendment?
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 850 offered by Mr. Grayson of Florida.
    Chairman Royce. Let's distribute the amendment.
    Ms. Marter. Page 14, beginning on line 11, strike ``of 
goods'' and all that follows through line 13 and insert the 
following: ``of both--(A) goods and services between such 
country and Iran; and (B) petroleum and petroleum products 
between such country and Iran.''
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. Mr. Grayson is recognized for 5 minutes.
    Mr. Grayson. Thank you, Mr. Chairman.
    There's a provision in this bill that I was uncomfortable 
with for a specific reason, and this amendment was intended to 
address that.
    The basic problem here is that we are through this bill 
trying to implement a 1-million-barrel-per-day reduction in 
Iranian oil exports that would be divided among the five 
remaining countries that import Iranian oil.
    There is no guidance in the bill itself about how that is 
to be allocated among those five except for the fact that each 
one has to make a significant reduction. And if one makes a 
significant reduction, then arguably the President can allow 
those imports to continue even if the 1-million-barrel-a-day 
reduction is not reached.
    We drafted this amendment, Grayson-102 in order to try to 
address that with the idea that we would try to put some teeth 
into this reduction by making it pro rata. There were very 
extensive, and I think productive discussions between my staff 
and the committee staff which, unfortunately, did not reach a 
conclusion that I'm comfortable with.
    I think the problem with the bill remains; however, I think 
that the best course right now is to ask the chairman's 
indulgence to withdraw this amendment and to see whether we can 
continue this conversation so that we reach some productive 
conclusion with the hope that the chairman will entertain some 
inclusion of this type of amendment in the manager's bill if 
this bill--the manager's amendment if this bill reaches the 
floor.
    Chairman Royce. If the member is willing to withdraw the 
proposed amendment then I'm prepared to work in good faith to 
see that we can try to incorporate, perhaps, some of these--
this provision in our committee report or through the other 
committees of referral to address the member's stated concerns.
    Mr. Grayson. Then, Mr. Chairman, I withdraw the amendment.
    Chairman Royce. I thank the gentleman for withdrawing the 
amendment.
    Are there any other amendments? Mr. Cotton.
    Mr. Cotton. Mr. Chairman, I'd like to call for Cotton 
Amendment 7.
    Chairman Royce. Madam Clerk.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 850 offered by Mr. Cotton of Arkansas. Page 
7, line 16, after ``paragraph (1)'' insert ``and any family 
member of such official (to include a spouse and any relative 
to the third degree of consanguinity)''. Page 9, line 5, after 
``official'' insert ``and any family member of such official 
(to include a spouse and any relative to the third degree of 
consanguinity)''. Page 9, line 12, after ``official'' insert 
``and any family member of such official (to include a spouse 
and any relative to the third degree of consanguinity)''.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. Mr. Cotton is recognized for 5 minutes.
    Mr. Cotton. Thank you, Mr. Chairman.
    I did not introduce this amendment to tongue tie the clerk 
of the committee, but to fix what I think is a potential gap in 
our sanctions regime.
    Section 102 imposes sanctions for persons responsible for 
Human Rights violations, for engaging in censorship or 
otherwise diverting goods designated for common Iranian people 
to their own purposes. I think that's very important.
    The whole point of the section is to impose financial pain 
and hardship on those malefactors, people listed in the section 
like the Supreme Leader of Iran, and the President, and so on 
and so forth. However, I think it is pointless if we let them 
simply divert assets and income to relatives, so this amendment 
would also add to the list of sanctions anyone married to those 
persons or to the third degree of consanguinity which in plain 
English are parents, children, aunts, uncles, nephews, nieces, 
grandparents, great-grandparents, grandkids, great-grandkids.
    We've seen tyrants around the world use family members to 
evade sanctions regime. You only need mention the name Suha 
Arafat to understand what I am talking about, and I urge the 
committee to support the amendment.
    Chairman Royce. Any other members wish to speak on this 
amendment? Mr. Castro.
    Mr. Castro. I have a question for Congressman Cotton, if 
you would allow me.
    Mr. Cotton. Yes.
    Mr. Castro. Congressman, under your amendment, if they're 
trying to funnel resources to family members, how would we 
investigate and come to that conclusion?
    Chairman Royce. Mr. Cotton, you're recognized.
    Mr. Cotton. There would be no investigation. If the prime 
malefactor of the family is identified as on the list for 
sanctions, then everyone within their family would 
automatically come within the sanctions regime, as well. It 
would be very hard to investigate and demonstrate through 
conclusive proof, and I think that we would leave a gaping 
loophole if we didn't adopt this amendment.
    Mr. Castro. Thanks.
    Chairman Royce. Mr. Grayson.
    Mr. Grayson. Mr. Chairman, again, we all understand the 
underlying purpose of this bill, and we all, I think, will be 
found to be in favor when the final vote comes, but in this 
case an amendment is being offered literally to allow the sins 
of the uncles to descend on the nephews.
    Again, this is a bill that provides for a prison term of 20 
years potentially for people who violate this bill. The 
amendment that's being offered doesn't even indicate a 
requirement of knowing violation.
    Again, my conception of the due process provision in the 
Fifth Amendment to the Constitution does not comport with this 
amendment. I will vote against it if it comes to a vote. And, 
also, I hope that we do now have a provision in the bill that 
indicates that there's severability at every provision in this 
bill if this provision is incorporated in the bill because I 
really question the constitutionality of a provision that 
punishes nephews on account of the actions of uncles.
    I yield back.
    Mr. Cotton. Iranian citizens do not have constitutional 
rights under the United States Constitution. I sympathize with 
their plight if they are harmless, innocent civilians in Iran. 
I doubt that that is often the case, and the stakes of this 
bill in our confrontation with Iran could not be any higher.
    Chairman Royce. Here's the suggestion I'm going to make, if 
the gentleman would yield.
    Mr. Cotton. Yes.
    Chairman Royce. We are familiar with past activities of 
sanctions on Human Rights abusers who then utilized family 
members in order to circumvent the sanction either by carrying 
cash out of the country, or similar examples.
    With the gentleman's acquiescence, what we'd like to do is 
work with you on this amendment in concept but refine the 
language going forward since we will have the opportunity to do 
that, and we have one of two options here; to have you withdraw 
the amendment, or if it's acceptable to Mr. Grayson, I will 
take the amendment as worded and work going forward with the 
gentleman from Florida and the gentleman from Arkansas to 
address the concept but do it in a way which is a little more 
refined.
    Let me ask, if I could; Mr. Cotton, your amendments are 
pending. Would you yield time to the gentleman from Florida for 
a minute so he might respond to the suggestion that I've just 
suggested?
    Mr. Cotton. Yes, sir, I will yield.
    Mr. Grayson. Thank you. I agree that relatives who are 
knowingly involved in a way that intentionally subverts the 
sanctions that are being discussed here are people who should 
be punished to the extent the Constitution permits that. And I 
would be happy to see such a provision that comports with the 
Constitutional limitations in this bill when one is drafted.
    I respectfully submit that this provision does not comport 
with those limitations.
    Chairman Royce. Let me suggest then, if you withdraw at 
this time, Mr. Cotton, that we work with legislative counsel in 
the interim and see if we cannot at this time develop language 
which will address this issue and maybe refine the definition.
    I am suggesting that we have the vote on the markup today, 
but I'm suggesting that the amendment before us might be 
rewritten in a way in short here with leg counsel's assistance 
that would allow it to move forward without objection.
    Mr. Cotton. Is the----
    Chairman Royce. Let me----
    Mr. Cotton [continuing]. Is the procedure you're proposing 
that we work on the amendment in the coming hours and we have a 
vote later?
    Chairman Royce. Yes, sir. That was my suggestion. I would 
sooner get this done now rather than later in terms of trying 
to refine the amendment. That was my suggestion. And if you'll 
indulge me for a moment, I'd like to recognize Mr. Vargas for 5 
minutes for his observations.
    Mr. Vargas. Thank you very much, Mr. Chair.
    I think what Congressman Cotton's attempting to do is very 
important. I think what he's attempting to do is to make sure 
that it's not circumvented through a family member. I think 
that's the point, and I think the point is well made.
    How to get there, I think, is the issue that we're 
discussing, and I think maybe some more time in drawing it up 
in a way that is Constitutional, but I think he has a very 
valid point. It would be easily circumventable if it just 
simply was money being transferred to a son. It's not the sin 
of the father being transferred to the son, it's the common sin 
of all, you know, the circumventing of the law.
    I think that's what you're attempting to do, and I think 
that's a very important aspect of this, and I would support 
that. How you achieve that, I think, is something that we could 
discuss, but I think the point is well made.
    Chairman Royce. Mr. Cotton.
    Mr. Cotton. I'm happy to follow the procedure you just 
proposed that we work on language of the amendment in the 
coming minutes and hours, and then have a final vote on a 
revised version later, but there is substantive matters here 
when we're working on the language, and I am still somewhat 
confused about the gentleman from Florida's Constitutional 
concerns given that we're not talking about American citizens.
    Second, I am worried that if we include any kind of mens 
rea provision like knowing then how is the United States 
Government going to prove what was and was not a knowing 
transfer inside the Iranian regime that has an ironclad grip on 
information. The money may not ever have to be transferred, it 
may be provided directly from vendors or other people who are 
offering bribes to senior officials, to children, or spouses, 
or parents and so forth. But I am certainly willing to work on 
the language.
    Mr. Kinzinger. Will the gentleman yield for a second?
    Mr. Cotton. Yes, I will yield.
    Mr. Kinzinger. I just want to add to that. I really like 
what you're doing. I'm confused, frankly, at why we're talking 
about Constitutional rights in this process when it comes to, 
frankly, enemies of the United States.
    From my understanding, Constitutional rights are earned by 
and granted to U.S. citizens, so I would hope, Mr. Chairman, as 
we do go forward in this, if this is something we can rectify, 
if this is a big difference between us in terms of saying to 
Iranian citizens or foreign citizens have the same 
Constitutional rights as Americans, that's something that we 
probably ought to have a substantive debate about. So, I yield 
back.
    Mr. Grayson. Will the gentleman yield? Will the gentleman 
yield?
    Mr. Cotton. Yes, I will yield.
    Mr. Grayson. Thank you. The law is perfectly clear on this 
subject.
    This is a bill that is enforced through sanctions that are 
enforced and instituted by the U.S. Government regardless of 
whom they're directed against, whether it's Iranian citizens, 
U.S. citizens, or anyone else.
    When the government enforces this provision it either 
institutes a civil fine, or it institutes a criminal penalty. 
Every criminal defendant in our system is entitled to the 
Constitutional rights including, among others, the right under 
the Fifth Amendment to due process of law.
    Honestly, this matter has been resolved through Supreme 
Court decisions that go back literally decades. I understand 
that certain members on the other side of the aisle wish to 
make some kind of point that citizenship conveys Constitutional 
rights that non-citizens don't have, but I assure them that 
it's a matter that's been resolved many, many years ago by the 
U.S. Supreme Court that every criminal defendant, regardless of 
citizenship, is covered by the Fifth Amendment to the 
Constitution.
    I yield back.
    Mr. Cotton. And I assure the gentleman that anyone who is 
targeted for sanctions has those due process rights. You are 
conflating that person, though, and the Iranian citizens that 
are supposedly not receiving knowledge of these transfers.
    Iranian citizens do not have due process rights under our 
Constitution; certainly, the spouses, or the children, or the 
siblings of the worst most evil members of that regime. If we 
specify someone who has--is on a sanctions list that does not 
violate the due process rights of any company or any person 
outside of Iran who is an American citizen, who is entitled to 
due process rights, of those due process rights.
    Mr. Grayson. Will the gentleman yield?
    Mr. Cotton. I would be happy to.
    Mr. Grayson. If the gentleman is seriously suggesting that 
a grandchild of a high Iranian public official is subject to 
sanctions, including 20 years of imprisonment under our laws 
and our Constitutions, all I can say is that the gentleman is 
completely mistaken, completely and utterly mistaken. And, 
frankly, the fact that you would even entertain the possibility 
that we would put such people in jail in the United States, 
that we would imprison them in the United States shows that the 
gentleman may not well understand the Fifth Amendment to the 
Constitution and underscores my concern.
    Chairman Royce. Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I think there's something very fundamental that's being 
misinterpreted here. I think the legislation already covers 
anyone who conspires, or assists, or participates in any 
prohibited activity. It's already covered.
    What your amendment would do, ultimately, is say if 
someone--and this is the persons who are designated to be on a 
list of individuals subject to sanctions. So, what it says is 
if you have, in fact, been identified as a high-level Iranian 
official or engaged in prohibited activities you could be 
subject to sanctions. And your amendment says, and so can your 
children and great-grandchildren.
    It's not a question of unconstitutional, it's a question of 
do we want to use the appropriately severe sanctions to impose 
upon someone who, in fact, has not engaged in prohibited 
activity. And I think the answer is no, that we actually do 
want to make sure that these sanctions work, that they severely 
impose penalties on people engaged in prohibited activity. If 
there are children, or grandchildren, or nephews who in any way 
participate in that and conspire to participate, facilitate 
they're already covered by the Act. To simply say because you 
are related that you are subject to criminal penalties, it 
seems to me that we--no one would want to do that.
    I don't think that's your intention, so I would just urge 
you in drafting the language to maybe reaffirm that, you know, 
what I think is already in here, that if, in fact, they have 
engaged or assisted in the facilitation of a prohibited 
activity, they will have violated the Sanctions Act themselves, 
so they're already covered. But simply to say you're subject to 
these criminal and civil penalties simply because you're 
related to someone who is engaged in that behavior would not be 
something that we would want to do.
    Mr. Grayson. Will the gentleman yield?
    Mr. Cicilline. Yes.
    Mr. Grayson. Thank you. I agree with the gentleman 
wholeheartedly, the existing provisions in the bill cover 
conspiracy to violate the bill. Clearly, the scenario that's 
been provided or suggested by the offeror of this amendment is 
covered when, in fact, there's a conspiracy to violate the bill 
already without any amendment being required.
    I'd also mention that apart from the due process 
limitations in the Constitution, the Constitution specifically 
provides that people are not subject to punishment because they 
are related to other people. Thank you.
    I yield back.
    Mr. Cotton. Will the gentleman yield?
    Chairman Royce. Let me recognize the gentleman from 
Arkansas, but I would ask that you yield to me for a minute to 
make an observation.
    Mr. Cotton. I will yield to the chair.
    Chairman Royce. We know, Mr. Cotton, from past experience 
that we do indeed have a problem with family members trying to 
circumvent sanctions. And I can think of two examples in 
particular in which a spouse was able to transfer money out of 
the country, despite the fact that in one case, there was 
subsequently conviction for crimes against humanity in the 
International Criminal Court. So this is, in fact, a challenge 
in terms of trying to figure out how we have those who are 
subject to sanctions not circumventing those sanctions.
    I suspect there is a way to draft this amendment, to refine 
this amendment so as to address that issue but also to do it in 
a way that meets some of the concerns of Mr. Cicilline as well 
as Mr. Grayson. And so if we could ask you to withdraw and work 
with leg counsel, it is possible that we would be able to get 
that refinement of this legislation.
    One way or the other, I would like to proceed with an 
amendment that would address this issue, but I think you could 
probably do it in a way which garners greater support.
    Mr. Cotton. Thank you, Mr. Chair.
    As I indicated, I am happy to do that. I am glad that the 
gentleman from Rhode Island agrees this is not a matter of 
constitutional law but a matter of taking prudential preventive 
measures.
    I think Mr. Grayson has raised at least one hypothetical in 
which my amendment could be over-broad if someone in the third 
degree of consanguinity has naturalized and become an American 
citizen. And that is one example of how we could welcome this 
amendment.
    With that, I am happy to yield back the balance of my time 
and withdraw the amendment and begin that work.
    Chairman Royce. I appreciate the gentleman's work. And if 
we could designate leg counsel to work with you today, then 
before the final vote, we will probably have that amendment in 
order.
    If I could go now to Mr. Grayson? I think you have a couple 
of additional amendments at the desk.
    Mr. Grayson. Yes. Mr. Chairman, I call for amendment number 
104. And I have that amendment at the desk.
    Chairman Royce. Clerk, would you report the amendment and 
distribute as well? Thank you.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 850 offered by Mr. Grayson of Florida. Page 
17, after line 16, insert the following: (1) by inserting 
``value and'' before ``volume''; page 17, lines 17 and 19, 
redesignate paragraphs (1) and (2) as paragraphs (2) and (3), 
respectively.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. Mr. Grayson, you are recognized for 5 
minutes to explain your amendment.
    Mr. Grayson. Thank you.
    Mr. Chairman, this is a result of what were highly 
productive conversations between our staff and your staff that 
did not quite reach the conclusion that we were looking for. 
And at this point, we are looking for a very minor modest 
modification to the language that has to do with the fact that 
the price of oil fluctuates. This is something that I think 
everybody on the committee and everybody who fills a tank of 
gas in his car, it is a fact that they are familiar with.
    In this situation, what we have is a commitment to the 
reduction of the volume in Iranian oil that is imported by five 
remaining countries who import Iranian oil but not a reduction 
in the value. So, for instance, let's say that it, 
unfortunately, happens that the price of oil triples in the 
next 12 months while we are trying to impose these sanctions. 
If we simply allow a continuation of the existing volume, then 
the income to Iran from these oil exports will triple. In that 
situation, the purpose of these sanctions would be utterly 
defeated because Iran would have more money, more oil money, to 
use in order to continue its nuclear program.
    Our solution to addressing that problem is simple. We would 
say that the sanctions require a reduction not only in the 
volume of oil but also in the value of oil. And so we propose 
simply to add the words ``value and'' to the word ``volume'' in 
order to prevent that scenario.
    Now, you will note, Mr. Chairman, that the opposite is not 
true. If the value of oil were to decline, let's say, the price 
of oil were to decline, by two-thirds during this 1-year period 
that we are imposing these sanctions, it, nevertheless, would 
remain true that the volume limitation would continue to bite.
    So here by this amendment, we end up with the best of both 
worlds. If the value of oil, the price of oil, goes up, then by 
adding this language, we prevent the Iranians from benefitting 
from that. If the price of oil goes down, then the existing 
language protects us and makes sure that these sanctions 
continue to have bite. That is the purpose of this simple 
amendment. It is only two words.
    I yield back.
    Mr. Chabot [presiding]. The gentleman yields back. Do any 
other members seek time to speak on the amendment?
    [No response.]
    Mr. Chabot. If not, speaking on behalf of the chair, I 
think we are in a position to accept the gentleman's amendment. 
Hearing no further requests for recognition, the question 
occurs on the amendment.
    Excuse me. The gentleman from Florida seeks recognition. 
The gentleman is recognized for 5 minutes.
    Mr. Deutch. Thank you.
    I just have a question for my friend from Florida. I just 
want to understand. If the price of oil goes up, does that mean 
that the reduction in the volume can be less than it would have 
been before in order to--how do you prioritize? If you could 
just walk through what would happen if the price goes up?
    Mr. Grayson. The reduction in the oil would be more, not 
less, under that scenario because what this does is it limits 
Iran to a reduction in total income. So, for instance, in the 
scenario that I believe that the gentleman from Florida is 
describing, let's say hypothetically the price of oil doubled.
    In that case, the target for reduction in Iranian oil 
exports would actually be increased. And the oil exports 
themselves would be decreased as a result. So by adding this 
language, what we are ensuring is that fluctuations in the 
price of oil do not accrue to the benefit of Iran and 
implicitly weaken the sanctions that we are trying to impose 
here.
    Does that answer the gentleman's question?
    Mr. Deutch. I thank my friend. If oil spiked to $150 a 
barrel, if the gentleman from Florida could just walk through 
what would happen without having ``greater of'' language or 
something that requires that we take the biggest bite possible, 
my concern is that if the price of oil spikes, that you can use 
the value piece, satisfy the value piece, but ultimately not 
impact the volume as significantly.
    I am struggling my way through this. I have not seen it 
before.
    Mr. Grayson. Well, will the gentleman yield?
    Mr. Deutch. Of course.
    Mr. Grayson. All right. Thank you. I will try to explain 
this further. Under section 203(a), we are dealing with 
exceptions to the applicability of sanctions. So we are dealing 
with the scenario under what conditions can the President say 
that an exception can be made and that oil imports by a foreign 
country can continue without sanctions under this act?
    So what we are doing is we are applying an alternative 
test. The President has to determine that both, both the value 
and the volume, have decreased before he can issue if he wants 
to issue an exception to the applicability of the sanctions. If 
the volume has decreased but the price of oil goes up, then the 
value has increased. And that would defeat the purpose of these 
sanctions.
    So what we are saying is for the President to make an 
exception, both the value and the volume have to decrease. That 
is why we use the word ``and.''
    Mr. Duncan. Will the gentleman from Florida yield?
    Mr. Deutch. Yes.
    Mr. Duncan. I think by using the word ``and,'' you are 
putting two values, so to speak, in place that both have to 
happen in order for the sanction to kick in. I am troubled by 
the word and the use of ``and,'' ``volume and value.'' I would 
be more comfortable with an amendment that used the word ``or'' 
so we would have an either/or situation. The word ``and'' 
troubles me, and I would oppose this amendment because of that.
    Mr. Grayson. Will the gentleman yield?
    Mr. Duncan. I will.
    Mr. Grayson. Okay. Again, what we are doing here is we are 
looking at an amendment to page 17 of the current draft, the 
amendment and the alternative that substitutes for the entire 
bill. And, again, we are not judging under what circumstances 
the sanctions are imposed. Quite the opposite, we are judging 
under what circumstances the sanctions are excepted. They are 
relaxed. We are judging under what circumstances the President 
has the authority to say that oil imports by a foreign country 
can continue.
    And, therefore, I think the gentleman actually would be 
right if we were talking about under what circumstances the 
sanctions apply. Actually, we are talking about under what 
circumstances the sanctions are accepted. And, therefore, it 
makes eminent sense, I think, to have both a value test and a 
volume test. Otherwise, if the price of oil increases, as I 
indicated before, the President will have the authority to 
exempt a foreign country as long as they decrease their volume 
but don't decrease their value.
    Mr. Deutch. I am reclaiming my time. I thank my friend from 
Florida. I thank my friend for explaining that. I think ``and'' 
actually, the use of the word ``and'' actually, makes it 
tougher. I appreciate him walking through that, and I will----
    Mr. Duncan. Will the gentleman yield back? I agree with 
you. It has been clarified now. So I will retract my earlier 
statement.
    I yield back.
    Mr. Deutch. Okay. So I yield back my time.
    Mr. Chabot. All right. The gentleman's time has expired. Do 
any other members seek recognition?
    [No response.]
    Mr. Chabot. If not, the question occurs on the amendment. 
All those in favor say aye.
    [Chorus of ayes.]
    Mr. Chabot. All those opposed say nay.
    [No response.]
    Mr. Chabot. It appears the ayes have it, and the amendment 
is agreed to.
    Do any other members seek recognition for the purpose of 
offering an amendment? The gentleman from Florida is 
recognized.
    Mr. Grayson. Thank you. Mr. Chairman, I have an amendment 
at the desk. It is amendment Grayson 111.
    Mr. Chabot. The clerk will read the amendment.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 850 offered by Mr. Grayson of Florida. 
Redesignate section 305 as section 306. Insert after section 
304 the following new section: Section 305. Amendment to 
Definitions of ``Significant Reduction'' under Section 1245 of 
the National Defense Authorization Act for Fiscal Year 2012. 
Section 1245(h)(3) of the National Defense Authorization Act 
for Fiscal Year 2012 (22 U.S.C.----
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Chabot. Without objection, the amendment will be 
considered as read. The gentleman from Florida is recognized.
    Mr. Grayson. Mr. Chairman, this amendment simply applies 
the same principle as the amendment that we just passed to a 
different section of the bill.
    I yield back.
    Mr. Chabot. The gentleman yields back. Are there any other 
members who seek recognition?
    [No response.]
    Mr. Chabot. As the chair had previously indicated, he would 
support this amendment as well. If no one else seeks 
recognition, the question occurs on the amendment. All of those 
in favor will say aye.
    [Chorus of ayes.]
    Mr. Chabot. All those opposed say nay.
    [No response.]
    Mr. Chabot. It appears the ayes have it. The ayes have it, 
and the amendment is agreed to.
    Do any other members seek recognition for the purpose of 
offering an amendment? The gentleman from Florida, Mr. Grayson, 
is recognized for the purpose of offering an amendment.
    Mr. Grayson. Mr. Chairman, this is the last amendment that 
I will offer before the committee today. And the crowd cheered. 
[Laughter.]
    Do I hear any amens?
    [Chorus of amens.]
    Mr. Grayson. Amen. Amen. I am sure that pleases everybody 
as much as it pleases me.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Grayson. With this amendment, again, I find myself 
drawn to the definition of a significant reduction under the 
previous sanctions passed, Fiscal Year 2012, NDAA. And I think 
it is really important to get this right because it is the 
underpinning of the mechanism by which the remaining five 
countries that purchase oil from Iran receive exemptions from 
losing their access to the American banking system.
    How we define what it means to significantly reduce in 
section 1245 of the Fiscal Year 2012 NDAA, how we define the 
term ``significantly reduce'' directly impacts the measurements 
used when determining compliance for the sake of granting 
exemptions.
    It is important to note that under the current soft 
standard in place, every importer of Iranian oil has received 
an exemption from the sanctions that are available to be levied 
pursuant to section 1245. If we really expect these sanctions 
to bite, I think we have to change that. It is time. The time 
has come to review these standards and make them firm.
    Currently the definition of significant reduction in the 
statute is as follows: ``The terms `reduce significantly,' 
`significant reduction,' and `significantly reduced' with 
respect to purchases from Iran of petroleum and petroleum 
products includes a reduction in such purchases in terms of 
price or volume toward a complete cessation of such 
purchases.''
    So, just to be clear about this, the statute does not 
provide for any amount any percentage any standard other than 
to say it is a reduction toward a complete cessation. One could 
say that you can go from 100 percent down to 99.99 percent and 
that is a reduction toward complete cessation that allows the 
administration to exclude these countries. Basically what it 
says is just reduce your purchases downward without any 
specific requirement.
    Frankly, that is not good enough. Mr. Chairman, I commend 
you and your staff for the work that you put into this bill and 
for what I view to be the first real attempt at benchmarking 
what a significant reduction looks like in terms of the number 
of barrels of crude oil that must be reduced.
    On pages 19 and 20 of this bill, you have taken the bold 
step of setting a hard mark of a reduction of at least an 
average of 1 million barrels of crude oil per day by the end of 
a 1-year period. Seeing that this was a figure that this 
committee could support, my search for finding a benchmark for 
what significant reductions look like in the real world was 
over. You have provided it in this amendment in the nature of a 
substitute.
    My amendment does nothing more than to tie the rest of 
section 1245 to the new benchmark that you drafted by adding 
the 1 million barrel of crude oil figure to the definition of 
significant reduction.
    Section 1245, again, governs the imposition of sanctions 
with respect to the financial sector of Iran and the governance 
of petroleum transactions with Iran. It is so crucial that 
there be an explicit mention of it in the rule of construction 
located on page 13 of this bill.
    I think it is only appropriate to merge the new law that we 
will be creating here today with the existing law. And I feel 
that we should leave no doubt as to what a significant 
reduction will look like going forward. It looks like a 
reduction on the average of 1 million barrels of crude oil per 
day that applies for all five of these countries individually. 
And that is exactly what this amendment attempts to do.
    With that, Mr. Speaker, I thank you for the time and for 
your important work on this important bill.
    Chairman Royce [presiding]. Well, I want to thank the 
gentleman from Florida. And if I could recognize myself for 5 
minutes? I just want to express my appreciation for your 
contribution to this measure. I think I certainly support this 
amendment.
    Are there any other members who would like to speak on this 
amendment before the body?
    [No response.]
    Chairman Royce. If not, the question is before the 
committee. All those in favor signify by saying aye.
    [Chorus of ayes.]
    Chairman Royce. All those opposed, no.
    [No response.]
    Chairman Royce. In the opinion of the Chair, the ayes have 
it, and the amendment is agreed to.
    We are in the process of having received back from leg 
counsel the language, the severability language, of making 
copies for the members and distributing that to the members, as 
Mr. Grayson and others have an opportunity to review that 
language. We will recess for 10 minutes.
    [Brief recess.]
    Chairman Royce. We are going to reconvene the committee, 
the markup, at this time. I am going to ask the members to 
please take your seats. And the Chair recognizes himself to 
offer a new effective date and severability amendment offered 
by me, Mr. Engel, Mr. Cotton, and Mr. Sherman, which all the 
members have at their desks. The clerk will report the 
amendment.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 850 offered by Mr. Royce of California, Mr. 
Engel of New York, Mr. Cotton of Arkansas, and Mr. Sherman of 
California. Page 29, beginning on line 19, strike ``the date 
that is 90 days after such date of enactment'' and insert ``May 
22, 2013.''
    At the end of title III add the following: Section 306. 
Severability. (a) In general--if any provision of this act, or 
the application of such provision to any person or 
circumstance, is found to be unconstitutional, the remainder of 
this act, or the application of that provision to other persons 
or circumstances, shall not be affected. (b) Effective date----
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. Without objection, the amendment will be 
considered as read. And let me yield myself some time to just 
share with the members that we were pleased to work with Mr. 
Grayson and with other colleagues to work out the language, 
which I think was mutually acceptable. And I would ask if any 
members wish to speak now on the amendment.
    [No response.]
    Chairman Royce. Mr. Grayson, I will acknowledge your time. 
Five minutes.
    Mr. Grayson. Thank you very much, Mr. Chairman. I think 
that this shows the process worked extremely well. I appreciate 
the chairman's consideration. I am very happy with the result.
    Thank you again. I yield back.
    Chairman Royce. Thank you, Mr. Grayson. Hearing no further 
requests for recognition----
    Mr. Collins. Mr. Chairman?
    Chairman Royce. Mr. Radel?
    Mr. Collins. No. Collins.
    Chairman Royce. Mr. Collins?
    Mr. Collins. Just a clarification. And I know--because 
there was a lot of amendments going on while this was written. 
And I know this--you are adding section 306. And a couple of 
Mr. Grayson's amendments redesignated 305, added a 306 in this 
process. So----
    Chairman Royce. Well, this particular amendment addresses 
the severability issue.
    Mr. Collins. I understand that, sir. I get the--I am just 
designating the proper section. You already have----
    Chairman Royce. Oh. I understand your point now, Mr. 
Collins.
    Mr. Collins. You already have a 306.
    Chairman Royce. You are concerned. As a technical matter, 
we will make certain that the numbers correspond correctly 
after the markup.
    Mr. Collins. I just wanted--because I know it was in 
process, but it was just designated wrong.
    Chairman Royce. Yes. Good point, Mr. Collins. All right.
    Any other members seek to speak on the amendment?
    [No response.]
    Chairman Royce. In that case, I will ask all of those in 
favor to say aye.
    [Chorus of ayes.]
    Chairman Royce. All opposed, no.
    [No response.]
    Chairman Royce. In the opinion of the Chair, the ayes have 
it, and the amendment is agreed to.
    Are there any further amendments?
    [No response.]
    Chairman Royce. Might I suggest, Mr. Cotton, if we were to 
pledge to work with you going forward on your amendment--the 
leg counsel has not worked their magic yet and produced or 
rewritten that amendment. Would that be amenable to you or 
would you sooner have us go into recess until we have that 
amendment before us?
    We would prefer to move forward, obviously.
    Mr. Cotton. I understand. I am amenable to that.
    Chairman Royce. Okay. All right. Then in that case, hearing 
no further amendments to this measure, the question occurs on 
agreeing to the base amendment in the nature of a substitute, 
as amended. All those in favor indicating by saying aye.
    [Chorus of ayes.]
    Chairman Royce. All those opposed, no.
    [No response.]
    Chairman Royce. In the opinion of the Chair, the ayes have 
it, and the amendment in the nature of a substitute, as 
amended, is agreed to. Without objection, the underlying bill, 
H.R. 850, as amended, is agreed to, is ordered favorably 
reported, and will be reported as a single amendment in the 
nature of a substitute.
    Also, without objection, staff is directed to make 
technical and conforming changes. And the Chairman is 
authorized to seek House consideration of H.R. 850 under 
suspension of the rules.
    I want to thank Ranking Member Engel. And I want to thank 
all of our committee members for their contributions to this 
critically important legislation and their assistance with 
today's markup. And the committee now stands adjourned.
    [Whereupon, at 12:53 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<Hoarfrost><brit-pound><acctof><acctof>a<natural><variable>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Register><pound><variable><star><box> 
                     <F-dash><func.-of><Register>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



     <F-dash>\<H-dash><pound><script-l><star><careof><Rx><bullet> 
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
